<html>
<title> - COMBATING BORDER VIOLENCE: THE ROLE OF INTERAGENCY COORDINATION IN INVESTIGATIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
  COMBATING BORDER VIOLENCE: THE ROLE OF INTERAGENCY COORDINATION IN 
                             INVESTIGATIONS 

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON BORDER,
                 MARITIME, AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2009

                               __________

                           Serial No. 111-29

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

55-887 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California          PETER T. KING, New York
JANE HARMAN, California              LAMAR S. SMITH, Texas
PETER A. DeFAZIO, Oregon             MARK E. SOUDER, Indiana
ELEANOR HOLMES NORTON, District of   DANIEL E. LUNGREN, California
Columbia                             MIKE ROGERS, Alabama
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            CHARLES W. DENT, Pennsylvania
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
CHRISTOPHER P. CARNEY, Pennsylvania  PAUL C. BROUN, Georgia
YVETTE D. CLARKE, New York           CANDICE S. MILLER, Mississippi
LAURA RICHARDSON, California         PETE OLSON, Texas
ANN KIRKPATRICK, Arizona             ANH ``JOSEPH'' CAO, Louisiana
BEN RAY LUJAN, New Mexico            STEVE AUSTRIA, Ohio
BILL PASCRELL, JR., New Jersey
EMMANUEL CLEAVER, Missouri
AL GREEN, Texas
JAMES A. HIMES, Connecticut
MARY JO KILROY, Ohio
ERIE J.J. MASSA, New York
DINA TITUS, Nevada
VACANCY

                    I. Lanier Avant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Conner, Minority Staff Director

                                 ______

      SUBCOMMITTEE ON BORDER, MARTIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

JANE HARMAN, California              MARK E. SOUDER, Indiana
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 MIKE ROGERS, Alabama
ANN KIRKPATRICK, Arizona             CANDICE S. MILLER, Michichgan
BILL PASCRELL, JR., New Jersey       PETER T. KING, New York (Ex 
AL GREEN, Texas                      Officio)
ERIC J.J. MASSA, New York
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                     Alison Northop, Staff Director

                          Denise Krepp Counsel

                       Carla Zamudio-Dolan, Clerk

                Mandy Bowers Minority Subcommittee Lead

                                  (ii)



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Loretta Sanchez, a Representative in Congress from 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mike Rogers, a Representative in Congress from the 
  State of Alabama, Ranking Member, Subcommittee on Border, 
  Maritime, and Global Counterterrorism..........................    32
The Honorable Bennie G. Thompson, a Representative in Congress, 
  and Chairman, Committee on Homeland Security...................     4
The Honorable Al Green, a Representative in Congress from the 
  State of Texas.................................................    35
The Honorable Ann Kirkpatrick, a Representative in Congress from 
  the State of Arizona...........................................    26
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas........................................    40
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California............................................    34
The Honorable Michael T. McCaul, a Representative in Congress 
  from the State of Texas........................................    27

                               Witnesses

Mr. Kumar Kibble, deputy Director, Office of Investigations, 
  Immigration and Customs Enforcement, Department of Homeland 
  Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Bill McMahon, Deputy Assistant Director, Bureau of Alcohol, 
  Tobacco, Firearms and Explosives, Department of Justice:
  Oral Statement.................................................    23
Mr. Anthony Placido, Assistant Administrator for Intelligence, 
  Drug 
  Enforcement Administration:
  Oral Statement.................................................    12
  Joint Prepared Statement.......................................    14

                             For the Record

The Honorable Mark Souder, a Representative in Congress from the 
  State of Indiana, and Ranking Member, Subcommittee on Border, 
  Maritime, and Global Counterterrorism:
  Prepared Opening Statement.....................................     3
Questions and Responses:
  Responses from Kumar Kibble....................................    43
  Responses from Anthony Placido.................................    48


                  COMBATING BORDER VIOLENCE: THE ROLE
             OF INTERAGENCY COORDINATION IN INVESTIGATIONS

                              ----------                              


                        Thursday, July 16, 2009

             U.S. House of Representatives,
                  Subcommittee on Border, Maritime,
                       and Global Counterterrorism,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:09 a.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Thompson, Lofgren, 
Jackson Lee, Cuellar, Kirkpatrick, Green, McCaul, and Rogers.
    Ms. Sanchez. [Presiding.] The subcommittee will come to 
order.
    The subcommittee will come to order. The Subcommittee on 
Border, Maritime and Global Counterterrorism is meeting today 
to receive testimony on ``Combating Border Violence: The Role 
of Interagency Coordination in Investigations.''
    Good morning, everybody.
    I want to thank our panel of witnesses for being here 
today. And I know that my ranking member will not be here 
today, because he has a markup in another committee, I believe. 
And so, Mr. McCaul, we thank you for being here and making this 
a bipartisan hearing. We appreciate that.
    Today's hearing is crucial to securing our borders and 
further reducing the violence in Mexico that has resulted in 
over 6,200 drug-related deaths just in this past year. The 
weapons used in the drug violence in Mexico largely come from 
the United States, as does the demand for drugs that pays for 
those weapons.
    This hearing is, I think, a timely opportunity to discuss 
the growing security problem and the violence happening at the 
border.
    And on a side note, this is the first time that the Drug 
Enforcement Administration and the Bureau of Alcohol, Tobacco, 
Firearms and Explosives have testified alongside our 
Immigration and Customs Enforcement agency in this subcommittee 
since I have been the chairwoman. So, that is already 
cooperation right there. Thank you.
    Thank you all for being here.
    The hearing comes after two major announcements by your 
respective agencies. Recently, ICE renewed outstanding 
memoranda of understanding, or MOUs, with both the ATF and the 
DEA to better coordinate and investigate the gun and drug 
related cases. These agreements come after much negotiation and 
hard work by both the Department of Homeland Security and the 
Department of Justice.
    And I want to salute both Secretary Napolitano and our 
Attorney General Holder for negotiating these agreements within 
the first 6 months of this administration. I know they worked 
very, very hard at it, and I am sure you were all involved.
    It is important to note that some of these memoranda of 
understanding, these MOUs, had not been updated since the 
1970s. And as we know, the drug and drug cartel and how they 
work has become so much more sophisticated in the last almost--
over 35 years.
    The updated ICE and DEA agreements recognized inherent 
expertise that the Department of Homeland Security has in 
combating large smuggling rings and in investigating these 
rings internationally and domestically, both.
    Further, the agreements will allow ICE to fully participate 
in DEA's Organized Crime Drug Enhancement Task Force Fusion 
Centers, which have been critical resources in this whole issue 
of drug related cartel and information.
    Also, as the largest investigative arm in the Department of 
Homeland Security, ICE has the authority to investigate the 
unlawful importation and exportation of weapons and firearms 
and drugs into the United States. A renewed agreement between 
ICE and ATF is crucial, given that ATF has responsibility for 
investigating domestic weapons violations.
    And further, the ATF has the comprehensive e-Trace 
database, which has been really the most incredible resource 
for us when we are trying to see the purchase and trace some of 
these firearms that have ended up in Mexico.
    Information sharing between the three agencies which are 
responsible for all the investigations of drug and weapons 
violations at the border is really central to our southwest 
border strategy. And in fact, that is why we are having this 
hearing, to make sure that you all are cooperating, talking to 
each other, enhancing what we really consider is a critical 
process.
    In the recent reports from the GAO office, before the MOUs 
were announced, of course, they had concerns about the types of 
communication and coordination, or lack of, that were happening 
between you all.
    One example was the widely reported situation where an ICE 
agent unknowingly conducted surveillance on an ATF agent, who 
was pursuing a suspected trafficker. So, we want to avoid those 
situations.
    We want to know who the good guys are and who the bad guys 
are, and want you all working together, because, quite frankly, 
we have limited resources--very scarce resources with respect 
to trying to do some of this. And these are very important 
issues.
    So, I am very optimistic that we are going to move forward, 
and move forward in a very positive way with the relationship 
between your respective agencies. I am hopeful that the 
agreements will work out, and that any technical issues, or 
what have you, we can manage over time.
    And I look forward to your testimony and to the answers to 
the questions that our subcommittee members will have.
    I will yield to Mr. McCaul, in case his side has an opening 
statement.
    Mr. McCaul. Thank you, Madam Chair. I asked to substitute 
in at the last minute here, so I appreciate----
    Ms. Sanchez. You are a pretty good substitute. We will take 
you.
    [Laughter.]
    Mr. McCaul. --your yielding to me.
    I would like to, first of all, enter into the record--
request that Mr. Souder's opening statement in its entirety be 
entered into the record.
    Ms. Sanchez. So be it.
    [The statement of Mr. Souder follows:]

                             For the Record

     Prepared Opening Statement of the Honorable Mark E. Souder, a 
   Representative in Congress from the State of Indiana, and Ranking 
 Member, Subcommittee on Border, Maritime, and Global Counterterrorism

    Thank you Madam Chair. Four months ago this Subcommittee held a 
hearing on border violence that provided some valuable insight into DHS 
capabilities and strategies for the growing violence and tension along 
the Southwest border. Mr. Kibble, welcome back.
    Since that time, the Federal government, especially the agencies 
represented here today, have deployed hundreds of additional personnel 
to the border, sought ways to increase cooperation and intelligence 
sharing, and enhanced partnerships with the Mexican government.
    While good work is being done, several cases of Mexican cartel 
violence this week provide a terrible reminder of the viciousness of 
the cartels and the lengths they will go to maintain their smuggling 
operations. Last Saturday, six different attacks were carried out 
against the police and another officer was killed on Monday during an 
attack on their convoy. Two days ago, Mexico woke up to 12 bodies of 
tortured and slain police officers.
    In March, a Special Agent from the DEA in El Paso testified before 
Congress that Mexican drug traffickers earn between $8 billion and $24 
billion annually. In order to break down these criminal networks, 
secure our borders, prevent violence from spilling over, and assist our 
Mexican counterparts, there must be coordination between agencies, with 
state and local law enforcement, and with foreign partners.
    In front of us today, we have three witnesses representing a 
combined investigative force of over 13,000 special agents. This 
hearing is an important opportunity to hear how they are working 
together, what impact the new MOUs will have on the agents in the 
field, and what progress is being made to compromise the drug 
trafficking organizations and close down their smuggling organizations.
    I would like to apologize up front that I will likely have to leave 
early to attend a markup in another Committee on the health care 
legislation. In case I may not have time to ask questions of the 
witnesses, there are a few issues that I want to put on the record now 
that need to be addressed:
        1. I think both of the new MOUs are steps in the right 
        direction and it will be several months and possibly a year to 
        see if they are having the intended impact in the field. 
        However, I am extremely concerned about a Notice that was 
        circulated by DEA in April effectively ending all ICE 
        counternarcotics investigations in the Caribbean. According to 
        the Notice, something very significant happened between the two 
        agencies in that area resulting in DEA deciding not to allow 
        any more ICE agents. I want to know what happened, that status 
        of the Notice, and if the new MOU provides a sufficient 
        framework to address these issues before such a drastic step is 
        taken that could have compromised many investigations.
        2. Information sharing and coordination are essential for the 
        agencies to work together. As I look at a partial list of all 
        of the different fusion centers, task forces, and initiatives 
        between involving just these three agencies, I wonder if we are 
        running the risk of duplicating efforts or going back to pre-9/
        11 stove-piping. It is important for the witnesses to address 
        how these entities work together and not in a vacuum.

    Mr. McCaul. And just a few points that he makes in his 
opening statement that I want to bring out as well is, while 
good work is being done, several cases of Mexican cartel 
violence this week provided a terrible reminder of the 
viciousness of the cartels and the lengths they will go to 
maintain their smuggling operations.
    Last Saturday, six different attacks were carried out 
against the police, and another officer was killed on Monday 
during an attack on their convoy.
    Two days ago, Mexico woke up to 12 bodies of tortured and 
slain police officers.
    In March, a special agent from the DEA in El Paso testified 
before Congress that Mexican drug traffickers earn between $8 
billion and $24 billion annually.
    In order to break down these criminal networks, secure our 
borders and prevent violence from spilling over, and assist our 
counterparts, there must be coordination between these agencies 
and state and local law enforcement, and with our foreign 
partners.
    In front of us today we have these three witnesses 
representing a combined investigative force of over 13,000 
special agents.
    And on a personal note, I had the opportunity to visit EPIC 
a couple of months ago and see the great work that they are 
doing there. As we looked across the river to Juarez, which 
arguably--I know the violence has gone down, thank God. But at 
the time, arguably, it was probably the most violent city in 
Latin America, where we have police officers being assassinated 
every 2 days, every 48 hours.
    So, this is a very, very important mission. I know with all 
the debate going on in the Congress over energy and health care 
right now, this is one of those issues that maybe is taking a 
back seat. But I think it is still, in my view, one of the most 
important issues that we have in this nation. It does, after 
all, involve our national security.
    And with that, Madam Chair, I will yield back.
    Ms. Sanchez. I thank the substituting ranking member, Mr. 
McCaul, from Texas.
    I would ask our full committee chairman, Mr. Thompson, if 
he would have an opening statement?
    Mr. Thompson. Yes, ma'am.
    Ms. Sanchez. Well, then, I will recognize you. How is that, 
Mr. Chairman?
    Mr. Thompson. All right.
    Thank you very much, Madam Chairman. And I would like to 
thank you for convening this important hearing.
    I would also like to thank our witnesses for being here 
today, to testify about how their agencies are fighting the 
narcotics and weapons trade that fuels violence along the U.S.-
Mexico border.
    These statistics, however, are very grim. Drug-related 
deaths have more than doubled in the past 2 years. Data on arms 
seized in Mexico show a growing number of increasingly lethal 
weapons being seized.
    For too long, this important fight has been hampered by 
turf battles and a lack of cooperation among fellow agencies 
responsible for keeping drugs and guns from crossing the border 
illegally. Memorandums of understanding, which were supposed to 
foster cooperation among agencies in such investigations, were 
not updated for years--and in some instances, decades.
    Agencies were unwilling to depart from the old ways of 
doing things, so efforts to update the agreements remained in 
limbo, even after the Department of Homeland Security was 
created. As a result, there was confusion about roles and 
responsibilities, and personnel that could have assisted in 
some of these cases were unable to do so, because of outdated 
constraints.
    In short, Madam Chair, narcotics and weapons investigations 
were simply not as effective as they could have been.
    Recently, however, the Obama administration has taken 
significant steps to address the problems. Just last month, ICE 
and Customs Enforcement signed new interagency agreements with 
the Drug Enforcement Administration and the Bureau of Alcohol, 
Tobacco, Firearms and Explosives. These agreements were 
intended to better coordinate narcotics and weapons 
investigations, and provide additional resources to fight 
violence along the border.
    In particular, the ICE-DEA agreement allows for an 
unlimited number of ICE agents to be what is referred to as 
cross-designated to investigate drug cases with a nexus to the 
border. This change is long overdue and will put ICE's 6,000-
plus agents and DHS's sizable presence at our nation's border 
to better use.
    It is important to note that MOUs are not a panacea for the 
coordination challenges faced by the agencies. Years of 
operational practice cannot be changed overnight with the 
stroke of a pen. Instead, it will take commitment--from the 
secretary of Homeland Security and the attorney general on down 
to the agents in the field--to make these agreements work.
    The American people, who continue to be concerned about 
possible spillover of border violence, expect no less. And 
certainly, Congress expects no less.
    I can assure you that this committee will monitor 
implementation of the MOUs closely and do everything possible 
to make certain that they are effective.
    I hope to hear, however, from our witnesses about that 
commitment to these agreements and to ensuring a unified 
federal law enforcement response to drug and weapons 
trafficking across America's borders.
    Again, thank you, witnesses, for being here.
    And again, Madam Chair, thank you for convening this 
hearing, and I yield back.
    Ms. Sanchez. Thank you, chairman, for being here today.
    Other members of the subcommittee are reminded that under 
the committee rules, opening statements may be submitted for 
the record.
    And so, now we welcome the panel of witnesses.
    Our first witness, Mr. Kumar Kibble, is deputy director of 
U.S. Immigration and Customs Enforcement's Office of 
Investigations. In that capacity, he serves as the chief 
operating officer for the largest investigative arm of the 
Department of Homeland Security.
    He is also responsible for policy, planning, management and 
operations aimed at countering transnational, national security 
and public safety threats arising from illicit travel, trade 
and finance. Mr. Kibble began his federal law enforcement 
career as a special agent with the United States Customs 
Service in Los Angeles, California.
    Welcome.
    And our second--I am going to go through the bios, and then 
we will go to our witnesses.
    Our second witness, Mr. Anthony Placido--welcome--leads the 
Drug Enforcement Administration's intelligence program. His 
responsibilities include serving as senior officer for the 
United States' intelligence community and providing executive 
leadership for the headquarters based Intelligence Division, 
the Organized Crime Drug Enforcement Fusion Center, and the El 
Paso Intelligence Center.
    He is also responsible for information sharing and exchange 
protocols. And Mr. Placido manages a budget of over $100 
million and develops policy for a staff of 1,300 people. He 
began his law enforcement career in 1979, with the U.S. Customs 
Service, and joined DEA the following year.
    And our third witness, Mr. William McMahon, is deputy 
assistant director for the Office of Field Operations at the 
Bureau of Alcohol, Tobacco, Firearms and Explosives, or the 
ATF--long title there. In this position, he oversees the day-
to-day operations of the seven westernmost ATF field divisions, 
as well as the bureau's International Affairs Office.
    Previously, he served as a special agent in charge of ATF's 
New York field division. And so, he began his career with the 
ATF in 1987 as a special agent in New York City.
    So, without objection, we are going to put your written 
testimony into the record. And I will ask you to summarize what 
you have written to us, and anything else you think we need to 
know, in 5 minutes apiece or under.
    So, we will start with Mr. Kibble. Welcome back again.

     STATEMENT OF KUMAR KIBBLE, DEPUTY DIRECTOR, OFFICE OF 
INVESTIGATIONS, IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Kibble. Thank you, Chairwoman Sanchez, Chairman 
Thompson, distinguished members of this subcommittee.
    On behalf of Secretary Napolitano and Assistant Secretary 
Morton, thank you for the opportunity to discuss ICE's role in 
combating border violence through interagency coordination. We 
work closely with our foreign and domestic law enforcement 
partners to conduct multiagency investigations, enabled by 
robust domestic and cross-border coordination and information 
sharing.
    ICE has the largest force of investigators in the 
Department of Homeland Security. More than 6,500 ICE agents 
detect, disrupt and dismantle cross-border criminal networks 
engaged in the smuggling of people, narcotics, bulk cash and 
weapons across our borders.
    ICE's efforts, along with the broader U.S. government 
response to Mexican drug cartel violence, require effective 
operational collaboration and expanded information sharing with 
our domestic partners and the government of Mexico. ICE 
facilitates these objectives through unique initiatives, such 
as Operations Armas Cruzadas and Firewall, the Border 
Enforcement Security Task Forces and the Law Enforcement 
Information Sharing Service.
    We also partner with federal, state and local law 
enforcement partners in national and regional deconfliction and 
coordination centers. And just last month, we renegotiated the 
formal interagency agreements with both DEA and the ATF to 
facilitate even closer coordination and expanded information 
sharing.
    ICE attache personnel are working closely with their 
Mexican counterparts to build a specialized, vetted 
investigative unit consisting of Mexican prosecutors and law 
enforcement personnel. This information sharing platform will 
facilitate exchange of weapons related leads for coordinated 
investigation of U.S. leads by U.S. agencies and Mexican leads 
by Mexican agencies.
    ICE and our sister agency, CBP, have stepped up our efforts 
to interdict southbound weapons smuggling. ICE has intensively 
deployed resources for Armas Cruzadas, this collaborative 
effort with the Mexican government, to identify, disrupt and 
dismantle the criminal networks that move these arms across our 
border.
    Since its inception, Armas Cruzadas has resulted in the 
seizure of 1,600 weapons, more than $6.4 million and over 
180,000 rounds of ammunition, as well as the arrest of almost 
400 individuals on criminal charges, resulting in 124 
indictments and 74 convictions.
    A recent case out of El Paso, Texas, demonstrates the 
significant impact of our proactive efforts at penetrating 
Mexican weapons trafficking networks. A joint investigation 
between ICE, ATF and the El Paso Police Department led to the 
indictment of four individuals attempting to purchase and 
illegally export weapons and ammunition out of the United 
States.
    The weapons they attempted to purchase included over 300 
AR-15 rifles, 300 .223-caliber rifles, 10 Barrett .50-caliber 
sniper rifles, two 40-millimeter grenade machine guns and 20 
handguns with silencers, along with a large amount of 
ammunition, with a total street value of more than half-a-
million dollars.
    In addition to addressing weapons smuggling, ICE partners 
with CBP to combat the illegal movement of cash across the 
southwest border. ICE's Operation Firewall counters bulk cash 
smuggling through capacity-building and close operational 
collaboration with foreign partners, such as Mexico. Since its 
inception, Firewall has resulted in 475 arrests and the seizure 
of more than $210 million, including over $65 million seized 
overseas.
    The Border Enforcement Security Task Force is a law 
enforcement model which recognizes that confronting the 
multifaceted threat of border violence requires sharing 
resources, information and expertise. The 14 BESTs serve as a 
platform from which interagency and international partners can 
work together to address cross-border crime.
    ICE, with the help of our partners, has cracked down on 
arms trafficking, human smuggling, bulk cash smuggling and 
narcotics smuggling organizations. The BESTs, since 2005, have 
reported more than 4,000 criminal arrests, seized over 200,000 
pounds of narcotics, over 2,500 weapons and more than 370,000 
rounds of ammunition, along with over $26 million in U.S. 
currency and monetary instruments.
    ICE complements this effort through our Law Enforcement 
Information Service by expanding our information sharing to our 
state and local partners, as well as other initiatives, such as 
the Border Violence Intelligence Cell and the Weapons Virtual 
Task Force. The Law Enforcement Information Sharing Service 
provides approximately 250 federal, state and local agencies 
with access to more than 2.5 million ICE records related to our 
investigations. And approximately 65 to 70 of these state and 
local agencies are located along the southwest border.
    Since January of this year, we have had more than 20,000 
queries of information through that network.
    In conclusion, coordination and information sharing 
initiatives I discussed today portray the extensive cooperation 
that we are advancing and already underway with our 
counterparts.
    I would like to thank the subcommittee for its continued 
support of ICE and our law enforcement mission. And I would be 
pleased to answer any questions you may have.
    [The statement of Mr. Kibble follows:]

                 Prepared Statement of Kumar C. Kibble

INTRODUCTION
    Chairwoman Sanchez, Ranking Member Souder, and distinguished 
Members of the Subcommittee:
    On behalf of Secretary Napolitano and Assistant Secretary Morton, 
thank you for the opportunity to discuss U.S. Immigration and Customs 
Enforcement's (ICE) role in combating border violence through robust 
interagency coordination. First and foremost, ICE uses its broad 
federal authorities to conduct intelligence-driven investigations 
through collaboration with the intelligence community, and other 
federal, state, local and foreign partners. These multi-agency 
investigations are enabled by robust, cross-border coordination and 
information sharing. ICE has the largest force of investigators in the 
Department of Homeland Security (DHS), and we protect our borders--
north and south--by investigating groups who exploit weaknesses in our 
legitimate trade, travel, and financial systems. More than 6,500 ICE 
special agents detect, disrupt, and dismantle cross-border criminal 
networks engaged in the smuggling of people, narcotics, bulk cash, and 
weapons across our borders. ICE is focused on countering the illicit 
activities that occur along our shared border with Mexico.

IMPLEMENTATION OF THE SOUTHWEST BORDER INITIATIVES
    The public announcement of the Administration's major Southwest 
Border (SWB) Initiative on March 24th--and the details outlined by the 
Secretary on April 15--called for strategic redeployments of DHS 
personnel totaling more than 360 additional officers and agents. ICE 
doubled assignments to ICE Border Enforcement Security Task Forces 
(BESTs); tripled the number of intelligence analysts working at the 
border; and quadrupled the number of agents designated as Border 
Liaison Officers to work in close cooperation with Mexican law 
enforcement. Within Mexico, ICE increased its investigative workforce 
by 50 percent.
    On June 5, Secretary Napolitano, Attorney General Holder, and 
Office of National Drug Control Policy (ONDCP) Director Kerlikowske 
released the 2009 National Southwest Border Counternarcotics Strategy, 
which details the Administration's collective approach to stem the flow 
of illegal drugs and their illicit proceeds across the SWB, and reduce 
associated crime and violence in the region.
    ICE's efforts, along with the broader U.S. Government response to 
Mexican drug cartel violence, require effective operational 
collaboration and expanded information sharing with the Government of 
Mexico (GoM), and domestic and other foreign law enforcement agencies. 
ICE facilitates these objectives through unique initiatives such as 
Operations Armas Cruzadas and Firewall, the Border Enforcement Security 
Task Forces or BESTs, the Law Enforcement Information Sharing Service 
(LEISS) and the Border Enforcement Coordination Cell (BECC). We also 
partner with Federal, state and local law enforcement partners, 
including the Organized Crime Drug Enforcement Task Forces (OCDETF), in 
national and regional deconfliction and coordination centers. And just 
last month, we re-negotiated formal interagency agreements with the 
Drug Enforcement Administration (DEA) and the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF) to facilitate even closer 
coordination and expanded information sharing.

COLLABORATION WITH THE GOVERNMENT OF MEXICO
    Cooperation among ICE and its domestic partners is a critical piece 
to effective law enforcement along the Southwest Border. Of equal 
import, however, is ICE's coordination with its Mexican counterparts. 
Indeed, earlier this year, President Calderon of Mexico identified the 
illegal flow of weapons from the United States as one of the biggest 
security threats to his country. On April 1, Secretary Napolitano 
traveled to Cuernavaca, Mexico with Attorney General Holder to attend a 
joint U.S.-Mexican conference on arms trafficking. At the conference, 
the Secretary and Attorney General discussed with their counterparts, 
including the Attorney General of Mexico, future joint efforts to 
prevent firearms from being smuggled from the United States into 
Mexico. Interagency collaboration with the Mexican government is a part 
of a broader theme of co-responsibility that Attorney General Holder 
and Secretary Napolitano agree is central to our strategic effort to 
secure the SWB. Stopping the flow of firearms and bulk cash into Mexico 
is an important component of the larger strategy to secure our borders 
from the criminal organizations that use those resources to traffic 
contraband and perpetrate violence.
    Operation Armas Cruzadas. ICE and U.S. Customs and Border 
Protection (CBP) have stepped up their efforts to interdict southbound 
weapons smuggling, pursuant to DHS authority to enforce export 
provisions of the Arms Export Control Act (AECA) as specifically 
designated within 22 C.F.R.--127.4 of the International Traffic in Arms 
Regulations (ITAR) and to prevent smuggling of weapons in violation of 
18 U.S.C. 554. ICE has intensively deployed resources for Operation 
Armas Cruzadas, which is a comprehensive, collaborative effort with the 
GoM to identify, disrupt, and dismantle the criminal networks that 
illicitly transport arms across the border. Under Operation Armas 
Cruzadas, ICE has implemented numerous activities that promote an 
intelligence-driven, systematic approach to arms trafficking 
investigations. Since its inception in June 2008, Operation Armas 
Cruzadas has resulted in the seizure of 1,600 weapons, more than $6.4 
million, and 182,668 rounds of ammunition, and the arrests of 395 
individuals on criminal charges, resulting in 124 criminal indictments 
and 74 convictions.
    A recent case out of El Paso, Texas, demonstrates the significant 
impact of our proactive efforts at penetrating Mexican weapons 
trafficking networks. A joint investigation between ICE, ATF, and the 
El Paso Police Department led to the indictment of four individuals 
attempting to purchase and illegally export weapons and ammunition out 
of the United States. The weapons they attempted to purchase and 
smuggle included 300 AR-15/AR-16 rifles, 300 short-barrel .223 rifles, 
10 Barrett .50 caliber rifles, two 40 millimeter grenade machine guns, 
20 handguns with silencers and a large amount of ammunition. The 
firearms would have had a total street value of over $500,000.
    Operation Firewall. In addition to addressing weapons smuggling, 
ICE partners with CBP to combat the illegal movement of cash across the 
SWB. One reason drug cartels pose such a dangerous threat is their 
extensive monetary resources. The United States must interrupt that 
illegal flow of money. ICE's Operation Firewall counters bulk cash 
smuggling through capacity building and close operational collaboration 
with foreign partners such as Mexico. On the first day of operations in 
2005, at the Benito Juarez International Airport in Mexico City, 
Mexican authorities seized $7.8 million en route to Cali, Colombia 
concealed inside deep fryers, rotisseries and voltage regulators. Other 
notable seizures include $7.3 million seized inside rolls of fabric and 
plastic and $4.7 million concealed inside air conditioning equipment 
and metal piping destined for Colombia. Since its inception, Operation 
Firewall has resulted in 475 arrests and the seizure of over $210 
million, including over $65 million seized overseas.

COORDINATION OF FOREIGN AND DOMESTIC INTERAGENCY 
OPERATIONS
    Vetted Investigative Units. ICE Attache personnel are working 
closely with their Mexican counterparts to build a specialized, vetted 
investigative unit (SIU) consisting of Mexican prosecutors and law 
enforcement personnel. This SIU will focus on bilateral weapons 
smuggling investigations and provide an immediate investigative 
response to weapons seizures within Mexico. These SIU investigative 
responses will address an information requirement gap in tracing 
weapons and exploiting investigative leads. With the establishment of 
the SIU, weapon serial numbers will be more consistently obtained and 
traced within ATF's e-Trace database prior to the weapons being turned 
over to the Mexican military. More comprehensive weapons trace data 
will facilitate better identification of U.S. sources of weapons. The 
SIU will better probe the seizures through interviews, telephone data/
record analysis and other investigative tools, with the goal of 
identifying cross-border weapons smuggling networks. Overall, such a 
robust information-sharing platform will facilitate exchange of leads 
for coordinated investigation of U.S. leads by U.S. agencies, and 
Mexican leads by GoM agencies.
    Border Enforcement Security Task Force. More than a DHS program, 
the Border Enforcement Security Task Force (BEST) is a law enforcement 
model which recognizes that confronting the multifaceted threat of 
border violence requires sharing resources, information, and expertise. 
BESTs serve as a platform from which interagency--and international--
partners can work together to address cross-border crime. The BESTs 
operating on our land borders and in major maritime port cities 
incorporate personnel from ICE, CBP, DEA, ATF, the Federal Bureau of 
Investigation (FBI), U.S. Coast Guard (USCG), and respective U.S. 
Attorney's Offices, along with other key federal, state, local, tribal, 
and foreign law enforcement agencies. The Mexican Secretaria de 
Seguridad Publica (SSP) currently participates in BESTs, and the GoM 
has agreed to provide representatives to every BEST team on the SWB. 
Additionally, other GoM agencies and foreign partners are negotiating 
with ICE to expand their participation in the BESTs, thus enhancing the 
international scope and participation of the initiative. Since the SWB 
announcement on March 24, ICE has established two new BESTs in Las 
Cruces and Deming, New Mexico, resulting in a total of 15 BESTs 
covering high-threat smuggling corridors. The BEST model has been very 
successful. ICE, with the help of our partners, has cracked down on 
arms trafficking, human smuggling, bulk cash smuggling and narcotics 
smuggling organizations. These efforts have disrupted cartel operations 
in both the United States and Mexico. Since July 2005, the efforts of 
BEST teams, working in conjunction with the Department of Justice (DOJ) 
and other law enforcement agencies, have been responsible for 4,240 
criminal arrests, 3,531 administrative arrests, 1,901 indictments and 
1,292 convictions. In addition, BESTs have seized approximately 10,348 
pounds of cocaine, 187,843 pounds of marijuana, 829 pounds of 
methamphetamine, 103 pounds of crystal methamphetamine, 1,257 pounds of 
ecstasy, 255 pounds of heroin, 97 pounds of hashish, 22 pounds of 
opium, 2,580 weapons, 870 vehicles, seven properties and $26.3 million 
in U.S. currency and monetary instruments.
    Just a few of our successes include the El Paso BEST's discovery 
and repatriation of one of Mexico's top ten most wanted fugitives; the 
Laredo BEST's arrest of a weapons trafficker supplying cartels with 
assault rifles used to murder Mexican police officer Navarro Rincon and 
others; the Laredo BEST's arrest of a member of the Mexican Mafia gang 
in possession of approximately 897 pounds of smuggled marijuana after 
he attempted to run over a Texas Department of Public Safety officer; 
and the Los Angeles Seaport BEST's arrest of an arms trafficker and 
seizure of 38 military style weapons.
    Law Enforcement Information Sharing Service. ICE complements the 
innovative operational coordination facilitated by the BESTs through 
aggressively sharing information with an even broader array of federal, 
state and local law enforcement agencies. The Law Enforcement 
Information Sharing (LEIS) Service is a Web-based data exchange 
platform designed to aid investigations by allowing DHS and other law 
enforcement agencies to share pertinent case information, to the extent 
permitted by law, more rapidly and extensively. Beginning in FY 2008, 
the LEIS Service was deployed on a regional basis to law enforcement 
consortiums at SWB locations within California and Arizona. 
Additionally, the Service was expanded to DOJ's repository for shared 
law enforcement information, OneDOJ. During the current fiscal year, we 
are in the process of extending LEIS the Service to Texas, and 
anticipate connecting to a law enforcement consortium in New Mexico, as 
well as to national and international consortiums such as Interpol and 
Europol.
    LEIS currently provides approximately 250 federal, state, local, 
and tribal law enforcement agencies access to more than 2.5 million 
subject records related to persons of interest, including suspects in 
child pornography, drug smuggling, immigration fraud, alien smuggling, 
and other immigration and customs cases. Approximately 65--70 of those 
agencies are located along the SWB. LEIS offers investigators a more 
efficient, automated system for obtaining information and helps to more 
quickly and appropriately identify relationships, patterns and 
connections between individuals and organizations that may not be 
immediately obvious. Since January 2009, the program has received 
nearly 20,000 queries for information. The LEIS Service is compliant 
with all existing privacy and security requirements as it relates to 
the safeguarding of personal information and user authentication and 
access.
    Border Violence Intelligence Cell. The Border Violence Intelligence 
Cell (BVIC) supports the national effort to combat weapons smuggling 
and stem the surge in violence along the United States-Mexico Border. 
This unit facilitates timely information sharing with state, tribal, 
local, foreign, and other federal law enforcement agencies, and serves 
as the focal point for analyzing all-source intelligence in support of 
the BESTs and ICE Attache Mexico offices. Through the BVIC, the BESTs, 
ICE Attache offices, and the U.S.-vetted GoM Arms Trafficking Group 
exchange cross-border weapons-related intelligence through a virtual 
intelligence network, creating a seamless investigation of the criminal 
networks that span the SWB. The BVIC, in cooperation with the ATF 
weapons desk at EPIC, serves as the central point for analyzing all-
source intelligence and trends in firearms smuggling. Since March 30, 
2009, analysts working with the BESTs, in coordination with the BVIC, 
have produced 213 intelligence reports, over 60 comprehensive target 
folders, and 114 investigative leads relating to suspected weapons 
traffickers operating along the SWB. Weapons Virtual Task Force. The 
Weapons Virtual Task Force (WVTF) is a community of interest within the 
Homeland Security Information Network, a secure, unclassified web-based 
platform. The community was created to assist information exchange 
between ICE and its Mexican law enforcement counterparts under the 
Armas Cruzadas initiative. Using the WVTF, law enforcement on both 
sides of the border can upload and share information pertinent to law 
enforcement actions along the SWB. While currently in its infancy, it 
is anticipated that the WVTF system will incorporate any GoM 
enforcement action results or intelligence developed by Mexican law 
enforcement related to Armas Cruzadas. The information will then be 
available for ICE investigators and analysts to view and analyze. Last 
month, ICE sent a team to Mexico to train Mexican law enforcement on 
the use of the system. This training is a strong step toward a closer 
relationship and better information exchange, and will continue as 
additional users on both sides of the border are added.

FORMAL INTERAGENCY AGREEMENTS
    The successes of the BESTs, as well as Operations Armas Cruzadas 
and Firewall, illustrate how co-located taskforces and multi-agency 
initiatives can stem the flow of cross-border criminal activity. 
Interagency roles, responsibilities, and coordination are guided by 
numerous statutes, presidential directives and formal, interagency 
agreements. Given the extent of ICE authorities in enforcing the 
nation's customs and immigration laws, ICE has cooperation agreements 
with federal, state, local, and foreign law enforcement agencies in 
order to more effectively leverage our combined resources. I would like 
to highlight two of the more recent partnerships entered into by ICE. 
These are the June 18, 2009, Interagency Cooperation Agreement between 
ICE and DEA and the June 30, 2009, Memorandum of Understanding between 
ICE and ATF.
    Interagency Cooperation Agreement between ICE and DEA. Recognizing 
the importance of implementing the recommendations made by the 
Government Accountability Office (GAO) in its March 2009 report, on 
June 18, 2009, ICE and DEA announced an Interagency Cooperation 
Agreement Regarding Investigative Functions Related to the Controlled 
Substances Act. The agreement addressed many of the recommendations 
outlined in the GAO report. Specifically, the June 18, 2009, agreement 
provides the following: (1) outlined a commitment by both ICE and DEA 
to share information through mechanisms including the Special 
Operations Division, the OCDETF Fusion Center and EPIC; (2) authorized 
the ICE Assistant Secretary to select an unlimited number of ICE agents 
for cross-designation by the Administrator of DEA; (3) delineated ICE 
authority to investigate narcotics smuggling with a clearly articulable 
nexus to the U.S. border, including related transportation and staging 
activities within the United States; and (4) procedures for 
deconfliction and operational coordination in both the domestic and 
foreign counternarcotics environments. The agreement took immediate 
effect and will be reviewed one year after its initial effective date. 
In addition, after the one-year review, the agreement will be reviewed 
thereafter every two years, or at any time, upon written request by 
either party.
    Memorandum of Understanding between ICE and ATF. ICE and ATF 
recognize and respect each other's complementary authorities. When ICE 
and ATF join forces through joint investigations or via the BEST teams, 
both agencies bring complimentary authorities to any investigation. The 
June 30, 2009, Memorandum of Understanding between ICE and ATF 
established the clear roles that both agencies have over domestic and 
international trafficking of firearms, ammunition, explosives, weapons, 
and munitions. The agreement recognized that both law enforcement 
agencies are actively engaged in the fight against persons and criminal 
organizations involved in violent crime and gun trafficking.
    The agreement requires that ATF report to ICE any information 
relating to attempted or planned violations of federal law within the 
jurisdiction of ICE. The agreement imposes a reciprocal requirement 
upon ICE to report to ATF any information relating to attempted or 
planned violations of federal law within the jurisdiction of ATF. The 
agencies also agree to coordinate information concerning firearms and 
explosives investigations that involve each other's investigative 
jurisdiction.
    Moreover, ATF and ICE will invite each other's participation in any 
investigations within the jurisdiction of the other agency. In 
addition, the agreement sets forth important policies concerning the 
shared use of human confidential sources of information and the control 
of intelligence. The agencies agreed to coordinate efforts as they 
relate to activities at Federal Firearms Licensees, Federal Explosives 
Licensees, gun shows, international borders and Ports of Entry.

CONCLUSION
    The coordination and information sharing initiatives I have 
discussed today portray the extensive cooperation currently underway 
between ICE and our counterparts in state and local governments, the 
Federal Government, and the Government of Mexico. Taken together, all 
of these initiatives represent a substantial advancement towards 
operating in a truly complementary fashion, by harnessing each agency's 
particular authorities and expertise more efficiently.
    I would like to thank the Subcommittee for its continued support of 
ICE and our law enforcement mission. I would be pleased to answer any 
questions you may have.

    Ms. Sanchez. Thank you.
    And now we will recognize for 5 minutes, Mr. Placido.

   STATEMENT OF ANTHONY PLACIDO, ASSISTANT ADMINISTRATOR FOR 
 INTELLIGENCE, DRUG ENFORCEMENT ADMINISTRATION, DEPARTMENT OF 
                            JUSTICE

    Mr. Placido. Thank you.
    Chairman Sanchez, Chairman Thompson, distinguished members 
of the subcommittee, I appreciate the opportunity to share the 
perspectives of the Drug Enforcement Administration on 
countering drug violence and the importance of interagency 
coordination and cooperation.
    The drug trade in Mexico has been rife with violence for 
decades. However, intentionally gruesome drug-related violence, 
kidnapping, torture and murder have remained at elevated levels 
since President Calderon initiated his comprehensive program to 
break the power and impunity of Mexico's drug cartels.
    Drug-related killings in Mexico have escalated from 
approximately 1,200 in 2006, to more than 6,200 in 2008, and 
are on pace to exceed 7,000 this year.
    In the past, the violence was largely confined to persons 
engaged in the drug trade. But there has been a disturbing new 
trend where the cartels are intentionally targeting Mexican 
military and law enforcement officials.
    Drug violence is not restricted to areas along our 
southwest border. That is why the goal of the Merida Initiative 
is to break the power and impunity of the cartels, rather than 
to secure our nation's borders.
    The problem we are facing includes the border, to be sure. 
But it actually is much bigger than the border itself.
    Just a few days ago, as was referenced previously, 15 
Mexican federal police officers were abducted, tortured and 
executed by enforcers associated with La Familia Michoacana 
Cartel in what appears to be retaliation for performing their 
official duties enforcing Mexican law. The attacks were not 
conducted in geographic proximity to our border, but, 
nonetheless, represent a potential threat to our national 
security.
    Systematic attacks against Mexican police and military 
officials undermine respect for the rule of law and degrade 
confidence in Mexican institutions by extension, causing 
instability in Mexico and throughout the region.
    Through the Merida Initiative and the generous support of 
Congress, we are supporting President Calderon's valiant 
efforts to break the power and impunity of these cartels and to 
reduce the extent to which these transnational crime syndicates 
engage in all types of lawlessness affecting the United States.
    There is justifiable concern that the violence Mexico will 
spill across our border and have an even more pronounced impact 
on Americans. Mexican cities along our southwest border, such 
as Juarez and Tijuana, have witnessed spectacular violence, 
despite the fact that El Paso and San Diego are among the 
safest cities in America.
    The U.S. interagency has attempted to distinguish between 
the criminal-on-criminal violence that has always been 
associated with the Mexican drug trade, and the new phenomenon 
of retaliatory violence against Mexican officials and 
institutions.
    Accordingly, as an interagency group, we have defined 
spillover violence to entail deliberate attacks by the cartels 
on U.S. government personnel, whether in the U.S. or Mexico, 
innocent civilians in the United States, or U.S. government 
facilities, including our embassies and consulates.
    Based on this definition, we have not yet seen a 
significant level of spillover violence. However, as a 
government we must, and are, building contingency plans for the 
worst-case scenario.
    DEA enjoys a decades-long history of working in cooperation 
with the Mexican government. DEA works closely with a number of 
trusted Mexican counterparts, who have undergone a rigorous 
vetting process to include robust background investigations and 
polygraph examinations.
    Working with our Mexican counterparts, DEA and the U.S. 
interagency have taken the offensive against Mexico-based 
cartels on their own turf and systematically sought to 
identify, disrupt and dismantle these cartels, including their 
U.S.-based cells. Project Reckoning and Operation Xcellerator 
are recent examples of this U.S.-Mexico collaboration.
    In addition to our ongoing investigations, interagency 
coordination and cooperation are critical. DEA continues to 
work in cooperation with our federal, state, local and foreign 
counterparts to address the threats emanating from Mexico.
    DEA's organizational attack strategy is an effort to 
systematically dismantle the command and control of these 
criminal syndicates. Key to this strategy is sharing of 
information and coordinating with our counterparts through the 
Special Operations Division, the OCDETF Fusion Center and the 
El Paso Intelligence Center.
    The recently signed interagency cooperation agreement 
between DEA and ICE underscores the mutual understanding 
between both agencies concerning the tremendous importance of 
information sharing and investigative coordination. Both 
Secretary Napolitano and Attorney General Holder have made 
clear that this agreement is the most efficient and effective 
way to promote interagency coordination and cooperation.
    The agreement addresses the concerns of both agencies 
without requiring legislative action, and allows for the cross-
designation of an unlimited number of ICE agents to exercise 
Title 21 investigative authority, and also strengthens 
information sharing and coordination protocols. It also 
requires ICE's full participation at EPIC, SOD and the OCDETF 
Fusion Center.
    We recognize that interagency and international 
collaboration are fundamental. It is imperative that we sustain 
the progress and that we support the actions by President 
Calderon.
    We must recognize that the violence we are witnessing 
represents the acts of truly desperate, wounded, criminal 
organizations. We remain committed to working with Mexico and 
our U.S. counterparts to stem the flow of bulk cash and 
weapons, while also working to sustain the disruption of drug 
transportation routes north.
    Chairman Sanchez, members of the committee, we appreciate 
this opportunity, and I stand prepared to answer questions. 
Thank you.
    [The joint statement of Mr. Placido and Mr. McMahon 
follows:]

               Joint Prepared Statement of William McMahon

                                  and

                           Anthony P. Placido

    Chairwoman Sanchez, Ranking Member Souder, and Members of the 
Committee, I appreciate the opportunity to appear before you today to 
discuss the Department of Justice's (the Department) ongoing 
initiatives and programs to promote coordination and collaboration 
between investigative agencies regarding investigations of narcotics 
and weapons along our borders.
    The Mexican drug cartels pose a national security threat to Mexico 
and an organized crime threat to the United States. Drug-related 
violence, including kidnappings and increasingly gruesome murders, has 
skyrocketed in recent years in Mexico, particularly near the border 
with the United States. Mexican drug traffickers and their enforcers 
are also engaging in other violent crimes, including kidnappings and 
home invasion robberies--primarily in Mexico but also in U.S. 
communities. Although violence has existed in Mexico over the years, 
the bloodshed escalated to unprecedented levels as the cartels use 
violence as a tool to undermine public support for the Mexican 
Government's vigorous counter-drug efforts. Traffickers display the 
bodies of their tortured victims to intimidate government officials and 
the public alike.
    A significant portion of this increase in violence actually 
reflects progress by the governments of Mexico and the United States in 
disrupting the activities of the drug cartels. After President Felipe 
Calder&oacute;n took office in 2006, the Government of Mexico, with 
support from the United States, undertook a comprehensive program to 
break the power of the narcotraffickers, making record seizures of 
drugs, clandestine laboratories, and currency. Mexican law enforcement 
agencies have arrested many high-level drug cartel members and the 
Mexican authorities are extraditing them in record numbers to face 
prosecution in the United States. This unprecedented pressure from the 
Government of Mexico has led to the retaliatory violence directed at 
Mexican law enforcement and the Mexican government as a whole. Also, as 
the Department and our federal agency partners work with Mexican 
authorities to disrupt and dismantle successive iterations of the most 
powerful cartels, their successors have escalated the fighting among 
themselves for control of the lucrative smuggling corridors along the 
Southwest Border.
    The violence in Mexico has direct and serious effects in the United 
States. According to the National Drug Intelligence Center's (NDIC) 
2009 National Drug Threat Assessment (NDTA), within the realm of drug 
trafficking organizations (DTOs), Mexican organizations represent the 
``greatest organized crime threat to the United States,'' with cocaine 
being the leading drug threat. Mexican and Colombian DTOs generate, 
remove, and launder between $18 billion and $39 billion in wholesale 
drug proceeds annually, a large portion of which is believed to be 
transported via the SWB. These proceeds, in turn further fuel the drug 
trade and its attendant violence. Additionally, Mexican DTOs obtain 
firearms, including handguns and rifles, from sources in the United 
States for use in DTO operations on both sides of the U.S.-Mexico 
border. These organizations and their violent paramilitary enforcement 
groups rely on such firearms and ammunition to control lucrative drug 
smuggling corridors along the border. We look forward to working in 
collaboration with Mexican authorities to build their capacity to 
assess all the weapons seized and provide better definition of arms 
trafficking across our shared border.
    I want to share with you the Department's strategy to work, in 
cooperation with the Government of Mexico, to dismantle the Mexican 
drug cartels systematically, which currently threaten the national 
security of our Mexican neighbors, pose an organized crime threat to 
the United States, and are responsible for the scourge of illicit drugs 
and accompanying violence in both countries. Let me begin by 
emphasizing the priority that this issue commands at the highest level 
of the Department's leadership, including the Attorney General himself. 
Most recently, on June 5th, in Albuquerque, New Mexico, Attorney 
General Holder, Department of Homeland Security (DHS) Secretary 
Napolitano, and Office of National Drug Control Policy (ONDCP) Director 
Kerlikowske released President Obama's National Southwest Border 
Counternarcotics Strategy (Strategy), designed to stem the flow of 
illegal drugs and their illicit proceeds across the Southwest Border 
and to reduce associated crime and violence in the region.
    This Strategy directs Federal agencies to increase coordination and 
information sharing with State and local law enforcement agencies, 
intensifies national efforts to interdict the southbound flow of 
weapons and bulk currency, and calls for continued close collaboration 
with the Government of Mexico in efforts against the drug cartels. The 
Strategy is an important component of the Administration's national 
drug control policy and complements the Administration's comprehensive 
efforts to respond to threats along the border.
    In his remarks on the Strategy, Attorney General Holder stated, 
``Drug trafficking cartels spread violence and lawlessness throughout 
our border region and reach into all of our communities, large and 
small.'' He further noted, ``By focusing on increased cooperation 
between the U.S. and Mexican governments as well as enhanced 
communication within U.S. law enforcement agencies, the National 
Southwest Border Counternarcotics Strategy we introduce today provides 
an effective way forward that will crack down on cartels and make our 
country safer.''
    Another important component of the United States Government's 
efforts to neutralize the powerful Mexican drug cartels is the Merida 
Initiative, a partnership between the Government of Mexico and its 
counterparts in the United States. The Administration's Merida 
Initiative presents new opportunities for expert collaboration on many 
fronts. With Merida funding provided by the Department of State and the 
United States Agency for International Development, the Department 
efforts to support the Administration's initiative include, but are not 
limited to : (1) placing two experienced federal prosecutors in Mexico 
to work with their counterparts in prosecutorial capacity-building; (2) 
assigning a forensics expert in Mexico; (3) assisting Mexican law 
enforcement and our interagency partners in strengthening and 
developing vetted teams and task forces that can work with U.S. federal 
law enforcement agencies to attack the cartels across the range of 
their criminal conduct; (4) advancing fugitive apprehension with U.S. 
law enforcement agencies and extradition with our Criminal Division 
experts; (5) assisting Mexico in developing an assets management system 
to deal with the assets seized and forfeited in criminal cases; (6) 
assisting Mexican law enforcement and prosecutorial offices in 
strengthening their internal integrity; (7) assisting Mexican law 
enforcement officials and prosecutors in enhancing evidence collection, 
preservation and admissibility; (8) supporting the Mexican National 
Migration Institute efforts to develop biometric capabilities; and (9) 
providing expert consultations on victim assistance and witness 
protection issues. At the same time, as an operational matter, the 
Department continues to work closely with Mexico as it addresses the 
issue of cartel-related public corruption, including through 
investigative assistance.

Overview of the Department of Justice's Mexico and Border Strategy
    The Department's strategic approach--built on its proven track 
record of dismantling transnational organized criminal groups, such as 
the Mafia in the 1980s and 1990s--confronts the Mexican cartels as 
criminal organizations, rather than simply responding to individual 
acts of criminal violence. Pursued vigorously, and in coordination with 
the efforts of other U.S. government agencies and with the full 
cooperation of the Government of Mexico, this strategy can and will 
neutralize the organizations causing the violence.
    The Department's strategy to identify, disrupt, and dismantle the 
Mexican drug cartels has five key elements and supports the National 
Southwest Border Counternarcotics Strategy. First, the strategy employs 
extensive and coordinated intelligence capabilities. The Department 
pools information generated by our law enforcement agencies and 
federal, state, tribal, and local government partners, and then uses 
the product to promote operations in the United States and to assist 
the efforts of the Mexican authorities to attack the cartels and the 
corruption that facilitates their operations. Second, through 
intelligence-based, prosecutor-led, multi-agency task forces that 
leverage the strengths, resources, and expertise of the complete 
spectrum of federal, state, tribal, local, and international 
investigative and prosecutorial agencies, the Department focuses its 
efforts on investigation, extradition, prosecution, and punishment of 
key cartel leaders. As the Department has demonstrated in attacking 
other major criminal enterprises, destroying the leadership and seizing 
the financial infrastructure of the cartels undermine their very 
existence. Third, the Department of Justice, in concerted efforts with 
the Department of Homeland Security, pursues investigations and 
prosecutions related to the trafficking of guns and the smuggling of 
cash and contraband for drug-making facilities from the United States 
into Mexico. Much of the violence and corruption in Mexico is fueled by 
these resources that come from our side of the border. Fourth, the 
Department uses traditional law enforcement approaches to address the 
threats in the United States of cartel activity. These threats include 
the widespread distribution of drugs on our streets and in our 
neighborhoods and battles between members of rival cartels on American 
soil. This type of activity was exemplified in Laredo, Texas from 2003 
through most of 2006 when a rash of drug related assassinations 
occurred between members of the Gulf and Sinaloa Cartels and culminated 
with the arrest of a Gulf Cartel assassin squad in April of 2006 by 
DEA-led operation assisted by state and local law enforcement, and 
other federal agencies, to include the FBI, USMS, ATF, IRS and ICE. 
These assassinations also resulted in injuries to innocent civilians 
and the death of a 15 year old juvenile who was killed because he was 
in the vehicle with his uncle, the assassins' intended target. This 
component of the Department's strategy will inevitably include 
investigations and prosecutions of U.S.-based gangs that forge working 
relationships with the Mexican DTOs. Fifth, the Department prosecutes 
criminals responsible for federal crimes involving trafficking, 
smuggling, money laundering, kidnapping and violence. The ultimate 
goals of these operations are to neutralize the cartels and bring the 
criminals to justice.
    The strengths of the Department's strategy are illustrated by the 
tremendous successes of Operation Xcellerator and Project Reckoning in 
the U.S. government's battle against the Mexican cartels. On February 
25, 2009, Attorney General Holder announced the arrest of more than 750 
individuals on narcotics-related charges under Operation Xcellerator, a 
multi-agency, multi-national effort coordinated by the DEA-led Special 
Operations Division (SOD) that began in May 2007 and targeted the 
Sinaloa Cartel. This cartel is responsible for bringing tons of cocaine 
into the United States through an extensive network of distribution 
cells in the United States and Canada. Through Operation Xcellerator, 
federal law enforcement agencies--along with law enforcement officials 
from the governments of Mexico and Canada and state and local 
authorities in the United States--delivered a significant blow to the 
Sinaloa Cartel's operations in the United States. For example, 
authorities seized over $61 million in U.S. currency, more than 12,000 
kilograms of cocaine, more than 1,200 pounds of methamphetamine, 
approximately 1.3 million Ecstasy pills, and other illegal drugs. Also 
significant was the seizure of 191 firearms, 4 aircraft, and 3 maritime 
vessels.
    Similarly, the Department's Project Reckoning, announced in 
September 2008, was a 15-month operation, also coordinated by SOD, 
which severely damaged the Gulf Cartel. It was one of the largest and 
most successful joint law enforcement efforts between the United States 
and Mexico. Project Reckoning resulted in over 600 arrests in the U.S. 
and Mexico, plus the seizure of nearly 20,000 kilos of cocaine, tens of 
thousands of pounds of marijuana, thousands of pounds of 
methamphetamine, hundreds of firearms and $76 million in currency. 
Perhaps most importantly, Project Reckoning led to the indictment of a 
triumvirate of Gulf Cartel leaders.
    Operation Xcellerator and Project Reckoning applied the classic law 
enforcement tools that the Department has successfully wielded against 
other large and sophisticated criminal enterprises to target the 
largest threats from the cartels. Neither would have been possible 
without the development and effective sharing of tactical and strategic 
intelligence between and among federal agency partners and the 
Government of Mexico and its law enforcement and special military 
components. They reflected multi-agency, bi-national efforts, 
coordinated by SOD and led by prosecutors and investigators from the 
Organized Crime Drug Enforcement Task Forces (OCDETF), a program that 
coordinates and channels elements of the federal government--including 
the Drug Enforcement Administration (DEA), FBI, Bureau of Alcohol, 
Tobacco, Firearms, and Explosives (ATF), the U.S. Marshals Service 
(USMS), U.S. Attorney's Offices, and the Department's Criminal 
Division, as well as Immigration and Customs Enforcement (ICE), Customs 
and Border Protection (CBP), and the Internal Revenue Service (IRS). In 
all, more than 200 Federal, state, local, and foreign law enforcement 
agencies contributed to the success of Operation Xcellerator and 
Project Reckoning. These multi-year investigations will result in 
extraditions and federal prosecutions in numerous states by various 
U.S. Attorney's Offices and the Criminal Division's Narcotic and 
Dangerous Drug Section.
    We believe the Administration has the right strategy for stopping 
the violence spawned by the cartels. But despite recent successes by 
the Administration, we also recognize that there is much more work to 
do. Drug trafficking organizations remain powerful and continue to 
evolve and are determined to find new methods to bring illegal drugs 
into the United States, while also sending cash and guns back to 
Mexico. This smuggling pattern fuels the cycle of violence in Mexico 
and is a threat to the United States. As a result, the Department is 
working closely with our other federal partners, State, local, and 
tribal officials, and the Government of Mexico to address these issues 
and root out these criminal enterprises.

Intelligence-Based Targeting Is the Foundation for a Successful 
Response
    For more than a quarter-century, the principal law enforcement 
agencies in the United States have recognized that the best way to 
fight the most sophisticated and powerful criminal organizations is 
through intelligence-based, prosecutor-led task forces that leverage 
the strength, resources, and expertise of the complete spectrum of 
federal, state, local, and international investigative and 
prosecutorial agencies. It was this approach, for example, that fueled 
the ground-breaking Mafia prosecutions in the United States and Italy 
in the late 1980s and 1990s. The Department is applying these same 
intelligence-driven tactics that broke the back of the Mob to fighting 
the Mexican drug cartels.
    The Department works through several programs to develop a full 
range of strategic, operational, and tactical intelligence against the 
Mexican cartels.
    First, since 2003, the Department has worked with the drug 
enforcement community to develop the Attorney General's Consolidated 
Priority Organization Target (CPOT) list of international ``Most 
Wanted'' drug kingpins. Of the approximately 55 worldwide cartels 
currently on the list, 20 of them are Mexican enterprises. The CPOT 
list is produced through the cooperative effort of the member agencies 
of the Organized Crime and Drug Enforcement Task Force (OCDETF) 
Program, and is the product of their shared information. Indeed, over 
the last several years lawyers and agents assigned to SOD have been 
coordinating on a number of cases concerning Mexican CPOT targets. This 
list helps the Department and our federal agency partners focus 
critical resources on the greatest threats.
    Second, the Department leads three multi-agency intelligence 
centers and an operational center that provide tactical, operational, 
and strategic support in targeting the largest and most dangerous 
Mexican cartels and focusing law enforcement resources. The El Paso 
Intelligence Center (EPIC) currently involves the participation of more 
than 20 agencies. EPIC provides critical, case-specific tactical 
intelligence to law enforcement consumers. For example, if a highway 
patrol officer stops a vehicle in the middle of the night, EPIC may 
have information about the vehicle, driver or passengers that can be 
provided in real time. EPIC focuses specifically on the Southwest 
Border but also tracks broader tactical data. The ATF's ``Gun Desk'' at 
EPIC serves as a central repository for all Department intelligence 
related to firearms along the Southwest Border. EPIC also serves as the 
primary repository for Department of Homeland Security intelligence on 
firearms smuggling. In addition, the FBI, already a contributing member 
at EPIC, is in the process of increasing its participation there by 
creating its Southwest Intelligence Group (SWIG). The SWIG will be used 
to coordinate information and intelligence relating to the Southwest 
Border and to better disrupt and dismantle the ongoing violent criminal 
activity. The SWIG head will also serve as an Assistant Deputy Director 
of EPIC.
    SOD, also led by DEA, is best described as an operations center, 
rather than an intelligence center, because its functions go beyond the 
gathering and processing of intelligence. It provides operational 
targeting, support, and coordination for long-term, multi-agency 
investigations. It passes leads that have been developed from 
intelligence sources to field investigators and coordinates the 
resulting investigations. SOD targets the command and control 
communications of major drug trafficking and narco-terrorism 
organizations. Special emphasis is placed on those major drug 
trafficking and narco-terrorism organizations that operate across 
jurisdictional boundaries on a regional, national, and international 
level, and the operations coordinated by SOD include OCDETF 
investigations. Operation Xcellerator and Project Reckoning were OCDETF 
investigations that were both initiated and coordinated through SOD. 
The transnational nature of narcotics trafficking requires a combined 
Federal, state, tribal, and local agency response directed at stopping 
the flow of narcotics into our communities, often brought together 
through the OCDETF Program and coordinated through SOD. SOD also plays 
a critical role in deconflicting these operations.
    The OCDETF Fusion Center (OFC) is a comprehensive data center 
containing drug and related financial data from DEA, ATF, FBI, IRS, the 
USMS, the U.S. Coast Guard, CBP, NDIC, EPIC, the Treasury Department's 
Financial Crimes Enforcement Network (FinCEN), the Department of 
State's Bureau of Consular Affairs, and other key players in the 
international drug enforcement world. The OFC provides critical law 
enforcement intelligence support for long-term and large-scale 
investigations, complementing the mission of SOD by providing non-
communications intelligence at an operations level. The OFC conducts 
cross-agency and cross-jurisdictional integration and analysis of drug 
related data to create comprehensive pictures of targeted organizations 
through its fused database, Compass. Using the protocols established by 
SOD, the OFC passes actionable leads to field investigative units. In 
addition, pursuant to recent agreements finalized by leaders within the 
Department and DHS, by the end of this fiscal year ICE is expected to 
be a full participant in the OFC.I21The third Department-led 
intelligence center is NDIC, which provides policy makers and resource 
providers with strategic drug intelligence. In addition to producing 
the NDTA, NDIC produces regional and subject-specific threat 
assessments. These include OCDETF Regional Assessments, including the 
Southwest Region. NDIC provides Document and Media Exploitation (DOMEX) 
support to field agents and prosecutors to facilitate the analysis of 
seized evidence. NDIC also provides DOMEX training and software to 
foreign law enforcement partners, including Mexico.
    The work being done at these intelligence and operations centers is 
remarkable, and their activities form a key component of our multi-
layered approach to dismantling this criminal threat.

Focused Law Enforcement Initiatives
    The Department's efforts are focused on three underlying aspects of 
the Southwest Border threat: drugs, guns, and illegal drug proceeds. 
These efforts include an integrated and coordinated operational 
response from Department law enforcement components in coordination 
with one another and federal agency counterparts.

    1. Movement of Drugs
    DEA has the largest U.S. law enforcement presence in Mexico with 11 
offices in that country. DEA Mexico primarily focuses its resources on 
the command and control infrastructure of the Mexican cartel leaders 
with the goal of removing the top layers of cartel leadership, who are 
essential to the operation of these criminal enterprises. To achieve 
this goal, DEA Mexico works closely with Mexican law enforcement to 
help fight this criminal threat. Project Reckoning and Operation 
Xcellerator are recent examples of this successful partnership. DEA 
also sponsors the Sensitive Investigative Units, elite vetted units of 
Mexican law enforcement and military which undergo robust background 
investigations and polygraph examinations.
    DEA also targets the cartels through its ``Drug Flow Attack 
Strategy'' (DFAS), an innovative, multi-agency strategy, designed to 
disrupt significantly the flow of drugs, money, and chemicals between 
the source zones and the United States by attacking vulnerabilities in 
the supply chains, transportation systems, and financial infrastructure 
of major DTOs. DFAS calls for aggressive, well-planned, and coordinated 
enforcement operations in cooperation with host-nation counterparts in 
global source and transit zones around the world.
    Department law enforcement components cooperate with other federal 
agencies on EPIC's ``Gatekeeper Initiative.'' A ``Gatekeeper'' is a 
person or group whose role is ``to facilitate the taxation and 
protection of contraband loads (including illegal aliens) and to 
enforce the will of the cartel through bribery, intimidation, 
extortion, beatings, and murder.'' These Gatekeepers control territory 
along the border and are key to cartel smuggling operations in both 
directions. The Gatekeeper Initiative combines the statutory expertise 
and authorities of its multi-agency members--DEA, FBI, the USMS, IRS, 
ICE, ATF, and CBP--to: (1) establish multi-district investigations of 
the Gatekeepers and their organizations operating along the Southwest 
Border, including the identification and investigation of corrupt law 
enforcement officials on both sides of the border; (2) identify 
additional activities of the Gatekeepers in other regions and pass 
investigative leads to those jurisdictions; (3) disrupt drug 
trafficking patterns along the Southwest Border by attacking the 
smuggling of major cartels; and (4) target the illegal purchase and 
distribution of firearms by Gatekeepers.
    Within the United States, DEA is working with DHS to implement its 
``License Plate Reader Initiative'' in the Southwest Border region to 
gather intelligence, particularly on movements of weapons and cash into 
Mexico. The system uses optical character recognition technology to 
read license plates on vehicles in the United States traveling 
southbound towards the border. The system also takes photographs of 
drivers and records statistical information such as the date, time, and 
traffic lane of the record. This information can be compared with DEA 
and CBP databases to help identify and interdict vehicles that are 
carrying large quantities of cash, weapons, and other illegal 
contraband toward Mexico. DEA and other law enforcement agencies will 
be able to submit queries to the database, obtain near real-time 
responses, and place alerts on suspect license plates.

    2. Trafficking of Guns
    ATF, in collaboration with other law enforcement entities, such as 
ICE and CBP, seeks to identify, investigate, interdict, and eliminate 
the sources of illegally trafficked firearms and the networks for 
transporting them.
    Since 2006, Project Gunrunner has been ATF's comprehensive strategy 
to combat firearms-related violence by the cartels along the Southwest 
Border. It includes special agents dedicated to investigating firearms 
trafficking on a full-time basis and industry operations investigators 
(IOIs) responsible for conducting regulatory inspections of Federal 
Firearms Licensees (FFLs) along the Southwest Border. For instance, 
from Fiscal Year 2004 through June 1st of this year, Project Gunrunner 
referred for prosecution 882 cases involving 1,838 defendants; those 
cases include 415 firearms trafficking cases involving 1,135 defendants 
and an estimated 13,382 guns.
    To date, Congress has allocated $25 million in support of Project 
Gunrunner, and has shown support for the President's request of $18 
million in additional funds for Project Gunrunner. These funds will 
allow ATF to open new field offices staffed with special agents and 
IOIs. With these additional resources, ATF can identify and prioritize 
for inspection those FFLs with a history of noncompliance who represent 
a risk to public safety, as well as focus on primary retailers and 
pawnbrokers who sell the firearms of choice used by drug cartels. In 
addition, the funds will be used to send additional special agents to 
consulates in Mexico, and upgrade Mexico's ballistic imaging 
technology, a key tool in assisting Mexican authorities in solving 
crimes involving firearms.
    The tracing of firearms seized in Mexico and the United States is 
an essential component of the strategy to curtail firearms trafficking 
along the Southwest Border. When a firearm is traced, specific 
identifying information--including the make, model, and serial number--
is entered into the ATF Firearms Tracing System (e-Trace), which is the 
only federal firearms tracing system. Using this information, ATF can 
establish the identity of the first retail purchaser of the firearm and 
then investigate how the gun came to be used in a crime or how it came 
to be located in Mexico. Furthermore, analyses of aggregate trace data 
can reveal trafficking trends and networks, showing where the guns are 
being purchased, who is purchasing them, and how they flow across the 
border. As a complement to the M&eacute;rida Initiative efforts, ATF 
received $4.5 million in asset forfeiture funds from the Treasury 
Department's Asset Forfeiture fund to initiate a Spanish version of 
ATF's e-Trace to Mexico. ATF is working with Mexican officials to 
increase their current usage of the e-Trace system, which will further 
improve, with deployment of Spanish e-Trace in December of this year.
    As part of President Obama's commitment to President 
Calder&oacute;n on his recent trip to Mexico, ATF will also work to 
enhance the Integrated Ballistic Identification Systems that stores 
digital photos and arms-related information related to criminal 
investigations. This will allow the sharing of digital images, 
ballistic markings, and other arms-related information to help identify 
leads in violent crimes both in Mexico and in the United States. Our 
efforts will be further enhanced by the President's commitment to urge 
the Senate to provide its advice and consent in order to ratify the 
Inter-American Convention Against the Illicit Manufacturing of and 
Trafficking in Firearms, Ammunition, Explosives, and Other Related 
Materials.

    3. Bulk Currency Shipments and Money Laundering
    The spike in violence in Mexico among the cartels stems from fights 
over market share and profits as the Mexican and U.S. governments have, 
by working together, succeeded in applying greater pressure against 
them. In addition to removing the leadership ranks of the cartels, the 
Department is waging a war to seize and forfeit their assets as well. 
Again, as with any other criminal enterprise, the Department places a 
high priority on attacking and dismantling the financial infrastructure 
of the Mexican DTOs. Every OCDETF-approved investigation must include a 
financial component designed to identify and ultimately forfeit the 
illegal assets of the targeted organization.
    Additionally, the Department has established a ``Bulk Currency 
Money Laundering Initiative,'' an OCDETF Southwest Region Strategic 
Initiative that investigates bulk currency movement along 
transportation routes in the Southwest. Although we do not know the 
exact amount of bulk cash flowing back across the U.S. border to the 
Mexican DTOs, NDIC estimates that Mexican and Colombian DTOs generate, 
remove, and launder approximately $18-$39 billion annually in gross 
wholesale proceeds from their distribution of illicit drugs in the 
United States, a large portion of which is believed to be smuggled in 
bulk across the border back into Mexico. State and local agencies, 
which encounter the vast majority of currency seizures on the highways, 
often lack the resources necessary to conduct follow-up investigations 
that will lead to the identification and prosecution of the major drug 
organizations that own the smuggled currency. Again, we have worked in 
partnership with other federal agencies with primary responsibility for 
securing the U.S. border. This Strategic Initiative is designed to 
enhance all the federal, state, tribal, and local agencies'; efforts 
through coordination and cooperative investigation. Federal agencies 
currently participating in this initiative include ATF, DEA, FBI, CBP, 
ICE, IRS, the USMS, and the U.S. Attorney's Offices.
    Between 2007 and 2008, $2.9 billion was forfeited under the 
Department's Asset Forfeiture Program. Under the National Asset 
Forfeiture Strategic Plan, asset forfeiture is integrated into every 
appropriate investigation and prosecution, recognizing that asset 
forfeiture is a powerful law enforcement tool that strips criminals of 
their illicit wealth.
    Finally, under the Merida Initiative, discussed above, the 
Department is sharing its expertise with Mexican investigators and 
prosecutors to strengthen Mexico's own asset forfeiture laws and 
authority.

Federal Prosecution Along The Border
    The United States Attorneys have over 540 prosecutors in the five 
Southwest Border districts handling national and district-level 
priorities including narcotics trafficking, firearms trafficking, 
violent crimes, and immigration offenses. Although the Assistant U.S. 
Attorneys (AUSAs) in these 5 border district offices comprise only 11 
percent of the nation's AUSAs, in FY 2008, they were responsible for 35 
percent of all felony cases, 68 percent of all felony immigration 
cases, and 35 percent of all non-OCDETF narcotics cases filed in U.S. 
District Courts nationwide. Each of the Southwest Border United States 
Attorney's Offices works closely with federal, state, tribal, and local 
investigative agencies on the initiatives described above. The United 
States Attorney's Offices are on the front lines of the national effort 
to prosecute both large-scale criminal enterprise cases involving 
significant trafficking organizations as well as other criminal 
offenses arising at the border with Mexico. The United States Attorneys 
also coordinate with Mexican prosecutors to share evidence in 
appropriate cases to ensure that justice is achieved either in U.S. or 
Mexican courts.
    During the past three years, U.S. Attorney's Offices and the 
Department's Criminal Division have seen a significant increase in the 
number of international fugitives returned to face justice in the 
United States through international extradition. Colombia and Mexico 
have extradited fugitives to the United States during this time in 
unprecedented numbers. Some of those extradited were significant cartel 
leaders, including major figures of the Tijuana and Gulf Cartels. For 
example, Osiel Cardenas Guillen, leader of the Gulf Cartel, was 
extradited from Mexico in January 2007. In December 2008, Mexico 
extradited Juan Diego Espinosa Ramirez, ``El Tigre,'' a Colombian 
associate of the Sinaloa Cartel. In February of 2009, Mexico extradited 
Miguel Caro-Quintero to the United States to face federal narcotics 
trafficking and racketeering charges brought by the Department; Caro-
Quintero is the former head of the now-defunct Sonora Cartel and was 
responsible for trafficking thousands of metric tons of cocaine and 
marijuana to the U.S. in the 1980s and 1990s. In March of this year, 
the Mexican government announced the arrest of Vicente Zambada-Niebla, 
a top Sinaloa cartel figure, who has been indicted on federal narcotics 
charges in the U.S. In April, the Mexican army arrested Vicente 
Carrillo-Leyva, second in command of the Juarez Cartel and the son of 
the late Amado Carrillo-Fuentes, the original Juarez Cartel head.
    To build upon these successes, and to handle the growing number of 
cases involving international extraditions and foreign evidence more 
effectively, the Department is in the process of establishing an OCDETF 
International Unit within the Criminal Division's Office of 
International Affairs, which will focus on OCDETF cases involving the 
highest-level Mexico-based targets. The Unit will expand the current 
level of cooperation with our foreign counterparts in the arrest, 
extradition, and successful prosecution of cartel leaders and their 
subordinates.
    In addition, through its regional fugitive task forces and 
district-based violent offender task forces, the USMS works with state 
and local police agencies on both sides of the border to locate and 
arrest offenders who have committed drug crimes or drug-related crimes 
of violence in the United States and subsequently fled abroad, as well 
as those who have been charged in the United States but remain resident 
in other countries. These USMS-led task forces place a high priority on 
apprehending cartel-related fugitives both domestically and 
internationally. In FY 2008, USMS arrested 269 violent cross-border 
felony fugitives, and it currently has 200 cross-border violent felony 
fugitive arrests for FY 2009.
    The USMS also leads the Mexico Investigative Liaison (MIL) Program, 
which focuses a coordinated effort on international fugitive matters 
along the Southwest Border. The purpose of this district-based violent 
crime initiative is to enhance the effectiveness of the USMS's 
apprehension of violent cross-border fugitives wanted in Mexico or the 
United States. The 42 Deputy U.S. Marshals currently assigned to the 
MIL program work under the auspices of the USMS Foreign Field Office in 
Mexico City. This program enhances international fugitive efforts by 
establishing and maintaining contact with USMS Mexican counterparts and 
sharing real-time law enforcement intelligence information.

Responding to the Threat with Additional Resources
    Although the elements of the Department's proven prosecutor-led, 
intelligence-based strategy are in place, in order to be more effective 
in combating the Mexican cartels, the Department has taken the 
following steps to buttress our law enforcement resources along the 
Southwest Border and in Mexico.
        <bullet> Increased DEA presence on the border. DEA is forming 
        four additional Mobile Enforcement Teams to specifically target 
        Mexican methamphetamine trafficking operations and associated 
        violence, and anticipates placing 16 new positions in its 
        Southwest Border field divisions. Twenty-nine percent (1,171) 
        of the DEA's domestic agent positions are now allocated to the 
        DEA's Southwest Border field divisions.
        <bullet> Re-allocation of 100 ATF personnel to Southwest 
        Border. Based on ATF intelligence, analysis of firearms trace 
        data, and firearms trafficking patterns, ATF has deployed 105 
        employees, including 68 agents, to work on a temporary detail 
        called Gunrunner Impact Teams. The personnel are located 
        primarily in Houston and other areas of South Texas. The FY 
        2009 Budget, the Recovery Act, and the FY 2009 Wartime 
        Supplemental include additional new funding for Project 
        Gunrunner as well. In particular, $10 million in American 
        Recovery and Reinvestment Act funding is being used to hire 37 
        ATF employees to open, staff, equip, and operate new Project 
        Gunrunner criminal enforcement teams (in McAllen, Texas; El 
        Centro, California; and Las Cruces, New Mexico), and to assign 
        two special agents to each of the U.S. consulates in Juarez and 
        Tijuana to provide direct support to Mexican officials on 
        firearms-trafficking-related issues. The FY 2009 Wartime 
        Supplemental provides $10 million to support ATF's firearms 
        trafficking efforts, with $4 million to upgrade Mexico's 
        ballistic imaging technology and $6 million in support of 
        Project Gunrunner. ATF will also open new Gunrunner field 
        offices in Phoenix, Arizona, and Houston under the FY 2009 
        Budget and will add 30 additional ATF personnel in those areas.
        <bullet> USMS Fugitive Apprehension and Violent Crime Response. 
        Over the last nine months, the USMS has deployed an additional 
        94 Deputy U.S. Marshals to district offices and sent two 
        additional deputies, with another two to arrive by the end of 
        the year, to assist the Mexico City Foreign Field Office in 
        order to step-up efforts along the Southwest Border. In 
        addition, new Criminal Investigators have been placed in the 
        asset forfeiture field units along the Southwest Border. These 
        new positions will support U.S. Attorneys' Offices and 
        investigative agencies in the investigation of cartels and 
        other large-scale investigations. To assist in securing the 
        Mexican side of the border, USMS is providing training courses 
        to our Mexican law enforcement counterparts, resulting in 
        increased intelligence and operational reciprocity as it 
        relates to fugitive investigations and violent crime 
        initiatives. USMS has trained and equipped approximately 250 
        Mexican law enforcement officers since 2001, resulting in a 240 
        percent increase in the number of violent felony fugitives 
        arrested.
        <bullet>OCDETF augmentation of its Strike Force capacity along 
        the Southwest Border. In order to foster the enhanced 
        intelligence sharing and coordination necessary to achieve the 
        optimum intelligence-driven, strategic enforcement approach 
        against the most enduring and elusive targets, OCDETF has 
        established Co-Located Strike Forces in key cities across the 
        country, including San Diego and Houston. These Strike Forces 
        operate as true task forces, whose multi-agency members are 
        housed in a common office separate and distinct from any of 
        their parent agencies. Through constant, daily interaction with 
        each other, while still enjoying the resources and support of 
        their parent agencies, the members of the OCDETF Co-Located 
        Strike Forces have achieved great success against the major 
        Colombian and Mexican cartels. OCDETF is expanding the staffing 
        of its San Diego and Houston Strike Forces. Within the last 
        year, OCDETF has also established two new Strike Forces, one in 
        Phoenix and one in El Paso. In addition, OCDETF is adding one 
        full-time financial analyst contractor for each of the Strike 
        Forces and has plans to place an NDIC DOMEX team with each 
        Strike Force.
    Increased FBI focus. The FBI is enhancing its efforts to disrupt 
drug activity and to dismantle gangs that may have connections to the 
violent Mexican drug cartels by participating on OCDETF task forces. 
Aside from operational task forces, each of the FBI&'s border offices 
has Border Liaison Officers who travel to Mexico on a weekly basis to 
liaison and coordinate with law enforcement partners. These tools 
provide local law enforcement on both sides of the border with a rapid 
response force to immediately pursue, locate and apprehend violent 
crime fugitives who commit their crimes and flee across the 
international border to elude capture.
    <bullet> Increased funding to combat criminal narcotics activity 
stemming from the Southern border. The American Recovery and 
Reinvestment Act includes $40 million, to the Department's Office of 
Justice Programs, to provide assistance and equipment to state, tribal, 
and local law enforcement to combat criminal narcotics activity along 
the Southern border and in High Intensity Drug Trafficking Areas, 
including the $10 million that is required by statute to be transferred 
to ATF's Project Gunrunner.
    <bullet> Public relations campaign. ATF, in partnership with the 
National Shooting Sports Foundation (NSSF), is doing a public education 
campaign, ``Don't Lie for the Other Guy,'' in Houston and San Antonio, 
Texas, and other locations on the Southwest Border this summer on 
illegal straw purchasing of firearms. Efforts under this campaign will 
include press conferences, radio, TV, billboards, and seminars with 
people who have federal licenses to sell firearms.

Updated Interagency Agreements
    In recent weeks, leaders within DEA, ATF, and ICE successfully 
finalized updated agreements to increase information sharing and case 
coordination mechanisms between DEA and ICE, and ATF and ICE, 
respectively. These negotiations were guided by the commitment of 
Attorney General Holder and Secretary Napolitano to alleviate existing 
concerns that resources could be more effectively focused to combat 
those responsible for the flow of drugs, weapons, and related proceeds 
across our borders.
    On June 18, DEA and ICE entered into a new interagency agreement to 
increase the number of agents targeting international drug traffickers, 
improve and enhance information and intelligence sharing, and promote 
effective coordination between the agencies. Pursuant to the Agreement, 
the Assistant Secretary of ICE will select an unlimited number of ICE 
agents for cross-designation to investigate violations of the 
Controlled Substances Act, 21 U.S.C. Sec. Sec. 801, et seq., (``Title 
21'') with a clearly articulable nexus to the United States border in 
coordination with DEA. These ICE agents will target smugglers who bring 
drugs into the country and transport them into our communities. In 
addition, ICE now will be able to investigate these violations overseas 
while coordinating with DEA. The agreement makes clear, however, that 
overseas DEA remains the focal point with foreign law enforcement 
officials on drug law enforcement operational and intelligence matters. 
ICE and DEA will fully share information electronically through the 
OCDETF Fusion Center. This will allow DEA, FBI, ATF, ICE, and other 
participating agencies to access each other's case information and more 
effectively target criminals. This sharing also promotes officer safety 
and avoids duplication of efforts.
    On June 30, ATF and ICE updated a memorandum of understanding (MOU) 
that clearly establishes how the two agencies will work together on 
investigations of international firearms trafficking and possession of 
firearms by illegal aliens. This agreement clarifies the notification 
process each agency is expected to follow while investigating the 
international trafficking of firearms, ammunition, explosives, weapons, 
and munitions. The MOU will optimize the resources and minimize the 
duplication of efforts by each agency. This agreement establishes a 
framework for both agencies to conduct investigations and share 
intelligence. Both agencies are committed to working together to reduce 
firearms-related violence along the U.S. border.

Conclusion
    Thank you for your interest in the Department's ongoing initiatives 
and programs to promote coordination and collaboration between 
investigative agencies regarding investigations of narcotics and 
weapons along our borders. In order to attack the full spectrum of the 
drug cartels' operations--drug trafficking, kidnapping, bribery, 
extortion, money laundering and smuggling of profits, and trafficking 
and use of firearms--we must employ the full spectrum of our law 
enforcement agencies' resources, expertise, and statutory authorities. 
By continuing to work together, building on what we have done well so 
far, and developing new ideas to refresh our strategies, we can rise to 
the current challenge. Again, thank you for your recognition of this 
important issue and the opportunity to testify here today. I will be 
happy to answer any questions you may have.

    Ms. Sanchez. Thank you.
    And now for 5 minutes, Mr. McMahon?

STATEMENT OF BILL MCMAHON, DEPUTY ASSISTANT DIRECTOR, BUREAU OF 
   ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES, DEPARTMENT OF 
                            JUSTICE

    Mr. McMahon. Thank you, Chairwoman Sanchez, Chairman 
Thompson, Congressman McCaul and other distinguished members of 
the committee.
    On behalf of Acting Director Ken Melson, I am honored to 
appear before you today to discuss ATF's ongoing role in 
preventing firearms from being illegally trafficked from the 
U.S. into Mexico, and working to end the associated violence 
along the border.
    For over 30 years, ATF has been protecting our citizens and 
communities from violent criminals and criminal organizations 
by safeguarding them from the illegal use of firearms and 
explosives. We are responsible for both regulating the firearms 
and explosives industry and enforcing the criminal laws related 
to those commodities.
    The combination of ATF's crime-fighting expertise, specific 
statutory and regulatory authority, analytical capability and 
strategic partnerships is used to combat firearms traffic both 
along the U.S. border and throughout the nation.
    We know we cannot fight this battle alone. We work together 
with our state and federal partners.
    Just over 2 weeks ago, ATF hosted a Violent Crime and Arms 
Trafficking Summit in Albuquerque, New Mexico. This conference 
was monumental in formalizing a longstanding partnership 
between ATF and ICE. At this conference, a memorandum of 
understanding was signed by the leaders of both ATF and ICE.
    The MOU establishes how ATF and ICE will work together on 
investigations of international firearms trafficking and 
possession of firearms by illegal aliens. This agreement also 
clarifies the notification process each agency is expected to 
follow while investigating the international trafficking of 
firearms, ammunition, explosives, weapons and munitions. A 
framework for conducting investigations and sharing 
intelligence is also formalized in the MOU.
    ATF and ICE routinely conduct joint investigations. Both 
agencies are committed to working together to reduce firearms-
related violence along the U.S. border. This agreement 
establishes a framework for both agencies to conduct 
investigations and share intelligence. With the signing of the 
MOU, we hope to better optimize the resources of each of our 
agencies and minimize any duplication of efforts.
    ATF's strategy for disrupting the flow of firearms to 
Mexico, Project Gunrunner, has referred over 882 cases for 
prosecution involving 1,838 defendants. Those cases include 415 
firearms trafficking investigations, which involve 1,135 
defendants and an estimated 13,382 firearms either trafficked, 
or attempted to be trafficked, to Mexico.
    The GAO report that was published in June of 2009, stated 
that over 90 percent of the firearms seized in Mexico and 
traced over the last 3 years had come from the United States.
    We have established that the greatest proportions of 
firearms trafficked to Mexico originated out of states along 
the southwest border. ATF trace data additionally shows that 
traffickers are also acquiring firearms from states as far east 
as Florida, and as far north and west as Washington state.
    Additionally, drug traffickers are known to supplement 
their firearms caches with explosives. Our expertise with 
explosives has proven to be another valuable tool to use in the 
fight against drug cartels.
    In fact, in the past 6 months, we have noted a troubling 
increase in the number of grenades seized or used by drug 
traffickers, and we are concerned about the possibility of 
explosives-related violence materializing in U.S. border towns. 
We have had at least one such instance in San Juan, Texas, when 
a hand grenade was thrown into a crowd of 20 people.
    ATF was able to identify the grenade and believes it is 
linked to a Mexican drug cartel. We believe this device was 
from the same source as those used during the attack on the 
U.S. Consulate in Monterrey, Mexico.
    Along the southwest border, ATF's Project Gunrunner 
includes approximately 148 special agents dedicated to 
investigating firearms trafficking on a full-time basis, and 59 
industry operations investigators responsible for conducting 
regulatory inspections of federally licensed gun dealers, known 
as federal firearms licensees, or FFLs.
    We recently sent over 100 additional personnel to South 
Texas to support our push against the trafficking of firearms 
to Mexico. In addition, ATF received a total of $25 million in 
new funding in fiscal year 2009 for Project Gunrunner.
    As the sole agency that regulates FFLs--roughly 7,000, 
which are along the southwest border--ATF has the statutory 
authority to inspect and examine the records and inventories of 
its licensees, firearms trafficking trends and patterns, and 
revoke the license of those who are complicit in firearms 
trafficking.
    For instance, ATF uses regulatory authority to review the 
records of an FFL that received thousands of firearms, removed 
their serial numbers and trafficked them to Mexico with the aid 
of a co-conspirator.
    An essential component of ATF's strategy to curtail 
firearms trafficking to Mexico is the tracing of firearms 
seized in both countries. Using this information, ATF can 
establish the identity of the first retail purchaser of the 
firearm, and possibly learn pertinent information, such as how 
the gun came to be used in the furtherance of crime and how it 
came to be located in Mexico.
    Furthermore, analysis of aggregated trace data has revealed 
trafficking trends and networks showing where the guns are 
being purchased, who is purchasing them and how they flow 
across the border. Let me share an example of how this trace 
data can be used to identify a firearms trafficker.
    ATF analysis of trace data linked a man living in a U.S. 
city along the border to three gun crimes in Mexico. Further 
investigation revealed that he had a fourth firearm that was 
recovered in another crime in Mexico, and that he had purchased 
over 100 AR-15 type receivers and seven additional firearms 
within a short time span using nine different FFL wholesale 
distributors as a source of his guns.
    In April of 2008, ATF seized 80 firearms from the subject 
and learned that he was manufacturing guns in his home. He sold 
over 100 firearms to an individual who is suspected of being 
linked to the cartels.
    Lastly, I would like to briefly mention ATF's operational 
presence at the El Paso Intelligence Center, EPIC, located in 
El Paso, Texas.
    EPIC is currently one of the most valuable tools for 
intelligence sharing, coordination and multiagency efforts to 
curb violence and firearms trafficking activities along the 
southwest border.
    At EPIC, we operate what is known as the ATF Gun Desk. The 
mission of the Gun Desk is to identify and analyze all firearms 
and explosives related data acquired and collected from law 
enforcement and open sources. This would include Mexican 
military and law enforcement, and also U.S. law enforcement 
assets operating on both sides of the border.
    The information gathered by the ATF Gun Desk is continually 
evaluated and vetted to determine if violations of federal 
firearms and explosives laws have occurred. The Gun Desk also 
generates investigative referrals for field agents.
    We at ATF will continue with our efforts along the 
southwest border, and we will harvest our partnerships with not 
only our law enforcement partners within the U.S., but we will 
continue to work with the Mexican officials to obtain more 
information and better understand the flow of firearms from the 
U.S. to their country.
    I thank you for having us here, and I look forward to 
answering your questions.
    Ms. Sanchez. Thank you, gentlemen. I appreciate your 
testimony.
    The chair will now recognize other members for questions. I 
remind each member that he or she will have 5 minutes to 
question the witnesses, and I will recognize myself to ask some 
questions.
    I have one question first, and it is to Mr. McMahon. 
Because there are some--we have a wide range, even on this 
committee, of how people feel about guns. I happen to be, I 
think, one of those in-the-middle kind of people. But we have 
some who would not like your agency very much, because they 
would like no restrictions, and some that probably would like 
to melt down every gun in the world.
    So, my question for you--because this has come up over and 
over--we keep hearing this number of 90 percent of the guns 
that are used in Mexico, or turned over from Mexico, are coming 
from the United States, most of them from the southwest portion 
of the United States.
    So, I guess my question is, can you just talk a little to 
what does that 90 percent mean? Does that mean of traceable 
guns? Does that mean--because maybe there are some guns that we 
do not have ballistics and, you know, chamber round information 
on, et cetera.
    Can you speak to that a little, so we can have a better 
understanding when we are using these numbers out there?
    Mr. McMahon. Sure. The 90 percent figure comes from what we 
receive from traces from Mexico. Over the past 3.5 years, 
Mexico has submitted a little over 20,000 firearms for tracing. 
Of those 20,000 firearms that we have traced, 90 percent are 
sourced from the U.S.--either manufactured or imported into the 
U.S.--before they were recovered in Mexico.
    I have heard reports that there are over 100,000 firearms 
recovered in Mexico. I do not know. Just like in the United 
States, I do not know how many firearms are recovered in crimes 
here. I can only tell you about--I can only give you the 
information about the guns that we receive information on.
    Ms. Sanchez. So, you have received about 20,000.
    Mr. McMahon. About 20,000 over the past three----
    Ms. Sanchez. And of those you have looked at, 90 percent 
which you could trace? Or 90 percent of those 20,000 had the 
traces on them that indicated they were from the U.S.?
    Mr. McMahon. Ninety percent of those 20,000 were sourced 
from the United States. We talk about another percentage.
    We rely mostly on successful traces, as well, because a 
successful trace is really the only investigative lead that we 
are ever going to have. And that is what we focus a lot of our 
resources on, because those successful traces are going to get 
us to a first, over-the-counter, retail purchaser. And that 
will give us a lead to follow up on.
    Some firearms are not successfully traced. But we know 
that, if it is a Smith and Wesson revolver recovered in Mexico, 
we know that that was manufactured in the United States. We 
might not know who the first over-the-counter purchaser was, 
but we know it is a U.S.-source firearm.
    Ms. Sanchez. Okay. Thank you for clearing that up.
    I would like to yield the rest of my time to Ms. 
Kirkpatrick. She has several questions that she wants to ask, 
and this is a very important issue on her border in Arizona.
    Mrs. Kirkpatrick. It is. Thank you, Madam Chairman.
    You know I have been paying a lot of attention to this 
issue since we have been here. And I appreciate the 
cooperation.
    I do have some concerns, though. The new MOU still does not 
give ICE drug enforcement powers, but allows for an unlimited 
number of agents to receive certification, and levels the 
playing field for how the agencies cooperate.
    But I am skeptical about whether the new MOU goes far 
enough, as I believe the only agency with investigative power 
of over border related crime should have legal authority to 
look into drug-related crime. This MOU, though, is clearly a 
major step. It will be important to observe how this agreement 
works in practice.
    And my first question is for you, Mr. Kibble. The ICE-DEA 
MOU states that ICE agents ``will investigate only illegal drug 
importation-exportation schemes, including the transportation 
on staging activities, within the United States or between the 
source or destination country and the United States.''
    So, my question is, would this prevent ICE from pursuing a 
drug investigation in a situation where they have arrested an 
individual for a separate crime such as human trafficking, and 
then happen to find narcotics in the person's possession, but 
it is not clear that the location is a staging area?
    Mr. Kibble. Congresswoman, for that particular scenario, we 
would be able to leverage our arrest authorities to take the 
person into custody. But if it was purely a domestic narcotics 
issue, we would certainly get DEA involved or state and local 
agencies.
    But our focus, with respect to the exercise of our Title 21 
authority, is directly focused on the smuggling conspiracies. 
So, unless there were some other factors that indicated that 
that same human trafficking network was involved in a 
conspiracy to smuggle narcotics across our border, we would not 
be relying on our Title 21 authority in that context.
    Mrs. Kirkpatrick. I have been talking with some of the law 
enforcement officers in my district. And some of them are 
certified through ICE to provide some investigative help, and 
that has made a big difference.
    Does this MOU expand that authority in rural Arizona?
    Mr. Kibble. Ma'am, I believe you might be referring to our 
Title 29 cross-designation authority, which allows state and 
local officers to assist us with customs matters. But the 
interagency agreement we reached with the DEA specifically 
refers to ICE agents, cross-designation of ICE agents. So, that 
is the limit of that.
    Now, we have, particularly on our Border Enforcement 
Security Task Forces, where we have multiple agencies that 
support our investigations, and they are vested--some of them 
are vested--with Title 19 authority, it may be that they are 
supporting some of these investigations.
    But with respect to the principal investigation of a Title 
21 importation or exportation matter, it would need to be a 
cross-designated ICE agent.
    Mrs. Kirkpatrick. Okay. I might be wrong about that, but I 
thought the law enforcement officer I was talking to had the 
cross-certification. But I will look into that as well on my 
end, and we will continue the conversation.
    Thank you, Madam Chairman. I yield back.
    Ms. Sanchez. Thank you to the gentlewoman from Arizona.
    I will now recognize Mr. McCaul, of Texas, for his 5 
minutes of questioning.
    Mr. McCaul. I thank the Madam Chair.
    And I would like to follow up on my good friend from 
California's line of questioning about the weapons being 
smuggled into Mexico.
    Mr. McMahon, the number, it was 20,000 weapons were given 
to us from Mexico. Is that right? Is that correct?
    Mr. McMahon. That is correct. Over the past 3-1/2 years, we 
have traced approximately 20,000 firearms from Mexico.
    Mr. McCaul. Okay. And how do they determine which weapons 
to send to you to be traced?
    Mr. McMahon. It is really up to them, just like it is for 
every law enforcement agency. We provide a service, which is 
tracing. It is no different than the NYPD sending us the 
traces.
    Mr. McCaul. Do we know how many weapons they seize in 
Mexico versus how much they give to us to be traced?
    Mr. McMahon. No. We do not know that total number. We just 
know open source reporting. There have been some statements 
from different people.
    We only know what we know, is what it comes down to, based 
on what they trace.
    Mr. McCaul. Okay. So, the weapons that they did give to 
you, of those 20,000, all 20,000 were traceable? Or were they 
not?
    Mr. McMahon. Well, there is a difference between traceable. 
We consider a firearm traceable that will lead us to the first 
over-the-counter purchaser. And only about 44 percent of those 
are traceable.
    But as far as a source of supply, we know that, just based 
on the manufacturing markings, whether or not it is a U.S.-
source firearm, either imported or manufactured.
    Mr. McCaul. So, based upon either a serial number or the 
manufacturer, you are able to determine the source, 
essentially.
    Mr. McMahon. The source country, yes. But a successful 
trace leads us to a first over-the-counter purchaser, because 
that is what we are dealing, the lead that we will be able to 
push out to the field.
    Mr. McCaul. And so, out of those 20,000, 90 percent, 
according to your review, based upon serial number or 
manufacturer, came from the United States.
    Mr. McMahon. That is correct.
    Mr. McCaul. Yes, we talked about hand grenades, both found 
in Texas and in Mexico, the threat to the U.S. Consulate's 
office in Mexico with hand grenades. Do you know where these 
hand grenades are coming from?
    Mr. McMahon. We do. The majority of them are coming from 
Central America, from the Guatemala area, further south in 
Central America. They may be manufactured in places such as 
Israel or other countries, but we know through tracing that 
those types of hand grenades were sold to certain Central 
American countries.
    Mr. McCaul. Can you just very briefly expand on the threat 
that was posed to the U.S. Consulate's office in Mexico?
    Mr. McMahon. I believe it was in October of this past year. 
Two individuals--there were two or more individuals--fired some 
rounds at the consulate, and then also threw a hand grenade 
that did not detonate at the consulate. We have agents working 
in that consulate.
    We identified the hand grenade. And then, based on the 
markings, we know where it sourced from. And then it was tied 
directly to that hand grenade that was also recovered in San 
Juan, Texas.
    Mr. McCaul. Were the suspects captured?
    Mr. McMahon. I believe they were at some point down the 
road. I am not totally sure of that.
    Mr. McCaul. Okay. If you could follow up with us on that, I 
would like to know who they were. I assume it may be drug 
cartel related, but we do not know.
    Mr. McMahon. Absolutely.
    Mr. McCaul. I would like to get the answer to that.
    The more heavy style, military-grade weaponry, what is your 
assessment as to where that is coming from?
    Mr. McMahon. We know that over the past 3-1/2 years, any 
military-grade weaponry that has been recovered is not U.S.-
sourced. We believe, again, that is from the Central America 
region.
    There are some reports that, you know, a .50-caliber rifle 
mounted on the back of a pickup truck may have been a military-
grade weapon. That was not. That was a domestic weapon here in 
the United States. But some of the LAWS rockets, grenade 
launchers, those are not being sourced from the United States.
    Mr. McCaul. And they come from Central America.
    Do you think the source where they are getting it in 
Central America could possibly be from, say, China or Russia?
    Mr. McMahon. It possibly could come in from that way into 
Central America, and then up into the southern border of 
Mexico.
    Mr. McCaul. Just an overall--I know this is on information 
sharing and MOUs, and all that. The MOUs that we are talking 
about here today are between these three agencies. But I wanted 
to see if we could expand upon also the cooperation that we 
have with Mexico in this effort.
    And Mr. Placido, you talked about the Merida Initiative, 
which is a very, very important initiative. And in terms of how 
we are sharing information with Mexico, I know it is a very 
dicey situation in terms of who you can trust.
    Having gone down to EPIC, I saw what they are capable of 
doing. They are doing some very great work, and I commend all 
three of you for the work you are doing.
    Can you just expand a little bit upon your three agencies' 
roles, EPIC, and how you are working with our Mexican partners?
    Mr. Placido. Certainly, sir.
    I guess, beginning with our cooperation with Mexico, the 
foundation--the bedrock, if you will--for our collaboration 
with our Mexican counterparts is through a process we know as 
vetting, which essentially entails conducting the same kind of 
robust background investigation that we would do on a special 
agent for any of our three agencies. It would include 
financials, a psychological assessment, drug use testing. And 
then it is concluded with a polygraph examination.
    But that gives us a snapshot in time in terms of the 
trustworthiness of the folks that we are dealing with and our 
ability to share information with them.
    When they pass through that process, they then come here 
and spend anywhere from 4 to 9 weeks in an intensive training 
program that we put them in Quantico, Virginia.
    And probably most importantly, then these vetted units all 
have at least one DEA special agent assigned, who has 
unfettered drop-in rights 24 hours a day, 7 days a week. And 
because these folks are now deemed to be both trustworthy and 
competent investigators, we can then share that sensitive 
investigative information that allows us to build these 
investigations that span the border, and fight transnational 
crime.
    And, of course, a critical component of that is that the 
information sharing with our Mexican counterparts is only as 
good as the sharing that we do on this side of the border. And 
so, organizations such as EPIC, which you visited, or the 
OCDETF Fusion Center, our special operations division, are 
designed so that we can coordinate investigations that cross 
geographic boundaries, that cross federal, state and local 
agency involvement, and actually focus the full weight of the 
United States against these criminal enterprises.
    Mr. McCaul. Well, thank you so much. I see my time has 
expired.
    Ms. Sanchez. I thank the gentleman from Texas.
    And we will now recognize the chairman of the full 
committee, Mr. Thompson, for as long as he would like.
    Mr. Thompson. Thank you very much, Madam Chairman.
    One of the reasons this hearing was called was this notion 
that the outdated MOUs had long since served their usefulness, 
and a notion of sharing intelligence was required. And I want 
to just get each one of you on the record as to whether or not 
you think that there presently exists some stovepiping of 
intelligence that an expanded MOU or another MOU could resolve, 
or, in your humble opinion, we have resolved all the 
stovepiping issues that would negate interagency communication.
    Mr. Kibble. Chairman Thompson, I think with this--
particularly with the interagency agreement with the DEA, as 
well as the process that we are forwarding with the OCDETF 
Fusion Center and the International Organized Crime Fusion 
Center--that we are pretty much going to make available a 
comprehensive--our reports of investigation and our 
investigative data, so that we can find opportunities for 
collaboration and get a more holistic picture of the threat we 
face.
    So, I do believe that this--of course, we need to implement 
this bill--but this represents a substantial advancement 
towards eliminating these stovepipes.
    Mr. Placido. Mr. Chairman, I would concur with my 
colleague, Mr. Kibble. We believe that the agreement as it is 
currently drafted, if it is executed faithfully, will bring 
about a new era in information sharing among and between law 
enforcement officials, not only at the federal level, but with 
our state and local counterparts, as well.
    The OCDETF Fusion Center--and now, the International 
Organized Crime Center, which has become an appendage of that--
fuses for the first time in a single repository, all of the 
investigative reporting of the seven agencies involved in the 
OCDETF program, and adds to that information on transnational 
and organized crime that is not really the drug trafficking.
    What we believe this will allow us to do is that kind of 
cross-cutting analysis that will drive investigations, build 
better coordination. And we think that that kind of 
coordination on the front end will eliminate many of the 
problems which historically have plagued interagency 
cooperation on the rear end as we do the investigations 
themselves.
    Mr. McMahon. I agree with my colleagues, obviously. We have 
been participating in the OCDETF Fusion Center for a number of 
years. All of our data is there at the Fusion Center, but then 
also, the ATF Gun Desk at EPIC. All of our information on 
firearms is located right there, available to every participant 
at EPIC.
    So, I believe we are sharing everything that we have, and I 
believe we are getting everything we need from the other 
agencies.
    Mr. Thompson. Well, thank you. So, the assumption is that, 
if the MOUs are properly implemented, the past issues that have 
prevented this interagency cooperation will not be around 
anymore.
    I am trying to just get it real clear.
    Mr. Kibble. Yes, sir. I mean, as a process and as a 
framework, yes. There of course will always be individual 
personality conflicts----
    Mr. Thompson. Sure, sure.
    Mr. Kibble. --that will bubble up.
    Of course, the key there will be holding those leaders 
accountable for living up to the spirit of the agreements that 
we have reached.
    Mr. Thompson. Well, and I think one of the reasons I think 
both this committee and Judiciary kind of encouraged the 
rewrite of some of these MOUs was because times have changed. 
And if we all are fighting one common enemy, the last thing we 
needed was turf battles in the middle of this issue.
    So, in that respect, I think all of us support the rewrite. 
We are just cautiously optimistic that its implementation will 
give us what we are looking for. And I think that is the 
spirit.
    A couple of other issues. DEA issued a moratorium on travel 
to the Caribbean and a couple of other areas. Have we lifted 
that moratorium?
    Mr. Placido. Mr. Chairman, I think it is an excellent 
question. And I think it demonstrates the need for this 
collaboration.
    I was led to believe that that question might be asked, so 
I did some research before coming to this meeting.
    What I can tell you is that that travel ban was related to 
a specific case. It was a temporary measure. It has been 
lifted.
    And the issue in question was not about whether, 
fundamentally, DEA and ICE could cooperate, but how important 
it is that, when we do work together, that we are coordinating 
and talking to each other.
    I believe that the outgrowth of that matter was that some 
ICE individuals traveled into the Caribbean to conduct an 
investigation without contacting the local office as required 
by the old MOU. And the individuals that they were actually 
going to meet with as confidential sources, or informants, 
were, in fact, people who had already been indicted by DEA, and 
we were seeking--they were fugitives--we were seeking their 
extradition.
    And so, until that matter could be resolved--it has been--
there was a ban on those particular individuals coming down so 
we could work through those specific issues.
    It is my belief that this new sense of cooperation, the new 
agreement that we have, and the sharing of information on the 
front end through the OCDETF Fusion Center would eliminate--we 
would never get to the point that the travel would occur and 
that they would be targeting these individuals as confidential 
sources, because the right record checks and the right 
communication would have been done, and they would have 
realized that these individuals were already indicted and were 
actually fugitives from U.S. justice.
    Mr. Thompson. So, your testimony is that, with the new 
MOUs, if that same situation would happen right now, there 
would be no need to issue the travel ban or anything else, 
because ICE and any other agency would already have the 
knowledge and information necessary to go forward?
    Mr. Placido. Yes, sir.
    Mr. Thompson. Good. Thank you very much.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And now we will hear from Mr. Rogers, for 5 minutes.
    Mr. Rogers. Thank you, Madam Chairman.
    Mr. Kibble, I want to talk about the 287(g) program. And I 
preface my remarks by letting you know I think it is 
outstanding. Alabama, as you are probably aware, is one of the 
three pilot states that started the program. It has been a 
stellar success.
    There have been zero complaints about abuse of the process, 
profiling, or anything like that. And the only thing I have 
heard is demand for more. Not just the state troopers, but 
sheriffs and police officers would like to have this training, 
as well.
    Now, having said that, I understand it has been suggested 
that you may revisit the MOUs for 287(g). Tell me, is that 
true?
    Mr. Kibble. Sir, I apologize. The Office of State and Local 
Coordination within ICE administers that program, so I am not 
completely up to speed. But I would be happy to go back and get 
you a more comprehensive answer.
    Mr. Rogers. If you would, I would like to know if they are 
going to be revisiting it. And if so, what changes are they 
suggesting would be part of that, and how might it change, if 
any, the task force model that we have with those MOUs?
    I would like to go back to your border security 
implementation. And I want to ask, do you use canines as a part 
of your efforts, canine teams?
    Mr. Kibble. Sir, as part of the Border Enforcement Security 
Task Forces, we have robust participation by Customs and Border 
Protection, the uniformed arm that secures our border. And they 
have access to canines, so that when we need to leverage 
canines in support of a particular interdictive activity in 
support of an investigation, we can reach and resource that.
    Mr. Rogers. In looking at just your department, ICE, I have 
talked about this repeatedly to this committee. While we have 
dramatically increased CBP and the number of agents, ICE has 
remained flat for the last 6 years as far as adding manpower.
    Do you feel like you have enough manpower to do your--to 
feel like you fulfill your role in these agreements in our 
border security initiative?
    Mr. Kibble. Sir, actually, with the generosity of the 
Congress in terms of the supplemental that was passed a number 
of months ago, and the president's budget that is currently 
being considered, we feel that is an appropriate resourcing.
    It is true--and we have gotten enhancements in previous 
years--it is true that our ratio of support, in terms of an 
investigator mapped against the CBP officer, has not been 
consistent--I mean, has fallen off somewhat.
    But we do feel that the Congress has been very generous in 
providing us with resources, particularly with respect to the 
violence we face along the border in terms of surging our 
resources to deal with that threat.
    Mr. Rogers. Well, my concern, though, is that you have been 
pulled from other important areas that you are already devoting 
attention to in order to meet this new role. And we have not 
added additional ICE agents to backfill.
    And I am very concerned about that continued level of 
funding of manpower in ICE.
    And just for the record, I know you are in a situation 
where you probably cannot tell me candidly on the record that 
you need more agents. But I know you need more agents, and I 
want to make sure in every forum where we have a chance, I want 
to bring that point up.
    I want to go back to the guns and talking about 90 percent 
of those that you could trace. I thought you said at one time 
from open sources that there had been 100,000 seized. Is that 
one of the open source numbers you had mentioned?
    Mr. McMahon. Yes, I have heard that, that there have been 
some statements from Mexico that they have seized over 100,000 
firearms.
    Mr. Rogers. Yes. So, I want to emphasize that, because not 
mentioning, not including the weapons grade, the military 
weapons grade items, that 90 percent is really misleading if 
you look at the overall stockpile of weapons they have there. 
Ninety percent of the 20,000 that we could trace were from the 
U.S., but that was just a fraction of the weapons.
    So, I think it is misleading when anybody says that the 
overwhelming majority of the weapons going into Mexico are from 
domestic sources here in America.
    And also, I find it surprising we hear so much talk about 
our southwest border being where these weapons are going 
across, when it seems to me it would be much easier to go into 
their coastal borders.
    Do you all have any knowledge of weapons coming in at our 
coastal borders?
    Mr. McMahon. The cases that we are putting together, the 
majority of them are coming across our land borders. We have 
seen some recent cases that may be going down into Central 
America. They may be coming up that way.
    But as far as the tracing picture, I mean, obviously, the 
more we know, the more we know. And we are trying to do our 
best to make it easier for Mexico to trace all of their 
firearms.
    We should at the end of the year be implementing our 
Spanish e-Trace, and hopefully to push that to every state in 
Mexico. And hopefully, that will enhance our numbers.
    The numbers have gone up steadily over the past couple of 
years. But obviously, we need to know the whole picture, just 
as we need to know the whole picture of firearms recovery here 
in the United States.
    Mr. Rogers. Thank you.
    And I yield back.
    Ms. Sanchez. And next we have Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Madam Chairwoman. And I think this 
is an important hearing.
    When we meet with officials from Mexico, one of the--this 
is one of the most important things they want to talk to us 
about.
    I remember, I think almost 3 years ago, meeting with the 
attorney general of Mexico. He said almost all of the guns that 
they find in the drug cartels are coming from the United 
States. And he expressed his recognition that we have a Second 
Amendment, understands that we are not going to change that, 
but really begged us, consistent with that, to do something 
about just the river of guns going into Mexico.
    And I was able to tell the Mexican congress when we met a 
month ago, that we have got a new effort underway. And they are 
very appreciative of the effort.
    And it is interesting. Across the political spectrum, from 
the far left to the far right, they are united on this one, 
because they know that, if they do not win their fight against 
the drug cartels, civil society in Mexico is very much 
jeopardized.
    So, I am happy to hear that there is this new coordination. 
I will express some anxiety. And we are hearing that everything 
is fine. I hope that is true.
    But I am wondering if there are some metrics that we ought 
to be looking at, because I am sure the chairwoman will want to 
have another hearing in a few months to get a report on--you 
know, everything is fine today. Let us measure our progress.
    What metrics would you suggest?
    Any of you?
    Mr. McMahon. I know one of the things that we will be 
looking at is the number of joint investigations we have, the 
number of joint operations that we have with ICE. I think, as 
we work through this process, I think we have always had a very 
good relationship with ICE and notifying each other on cases.
    But now, with the specifics in this MOU, I think it will 
make easier. It will spell it out a little bit more easily for 
our troops on the ground on how they should be coordinating. 
And I know that is one of the things we will be looking at.
    Mr. Placido. Madam, if I may, one of the things that I 
would add to that response is that the participation at the 
OCDETF Fusion Center and the provision to that center of 
investigative reporting from the various agencies lends itself 
to counting and to monitoring by means of metrics. And that 
will be an approximate measure, I believe, of our success, 
because as the participants of the various investigative 
agencies have access to information from other agencies, that 
should naturally sort of lower the number of conflicts we have 
later on during the investigations.
    So, I would suggest to you that one of the key metrics to 
be addressed would be the extent to which all of the 
participating agencies are, in fact, honoring the agreement and 
providing their most sensitive investigative information to the 
center.
    Mr. Kibble. I agree with my colleagues. And the rigor of 
metrics will be helpful and useful in monitoring that.
    I also think, though, it is important that we as the senior 
leaders in our agencies meet regularly and speak with our 
principal field officers in the field to ensure that, if there 
are any issues that are arising, we are resolving them as 
quickly as possible.
    I can tell you that we have had a number of conference 
calls with all of our SACs. We have placed messages to the 
field. They have already engaged their DEA counterparts to 
really make sure we are off on--and our ATF counterparts--to 
make sure we are off on the right foot in terms of getting this 
agreement implemented.
    Ms. Lofgren. Let me ask this. We have got a problem of gun 
flow south, drug and human smuggling north. But we also have 
money laundering. And that is not the focus of this hearing, 
but I am wondering how we incorporated our need to follow the 
money with the coordination that you are doing here.
    Mr. Kibble. Well, for example, the interagency agreement 
with DEA talks about sharing of records through the OCDETF 
Fusion Center. And that will include our financial 
investigations, as well--an area that ICE has more than 30 
years of experience in, in terms of money laundering.
    So, there certainly will be--we have also agreed to share 
data at EPIC in the National Seizure System.
    So, a lot of the coordination mechanisms that are contained 
in these agreements will serve the money laundering and the 
flow of illicit proceeds south, as well.
    Mr. Placido. I would only add to my colleague's testimony 
by saying that, at the Drug Enforcement Administration, every 
criminal investigation must have a financial component to look 
at the money laundering. That is certainly the case in all of 
the interagency OCDETF investigations. It is required.
    And I will let my colleagues speak for themselves, but I 
believe that is an integral part of all of our investigations 
today. The grease and the glue that makes this transnational 
crime business work is illicit money. And it is clearly in our 
crosshairs.
    Ms. Lofgren. I see my time has expired, and I would yield 
back.
    Mr. Thompson. [Presiding.] Thank you. The gentlelady is 
returning.
    The gentleman from Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you. Thank you, Mr. Chairman.
    And I thank the witnesses for testifying.
    And I might also add that I am grateful that we have one 
more day to try to get it right. And because we have this 
additional day and so little time, I want to apologize if my 
questions seem to be somewhat overbearing, or if I should say 
something that creates a little bit of friction.
    But time is so limited, and we never know for whom the bell 
will toll next. So, I want to make sure that I use my time as 
efficaciously as I can.
    Do we agree, all of us--meaning the three of you and me--
that we have a gunrunning problem? And I assume that your 
answer is ``yes,'' because you would not have a Project 
Gunrunner if you did not have a problem.
    So, you all agree that there is a problem?
    All right. Given that we all agree there is a problem, then 
the question becomes, if we gave you everything that you need 
within reason to resolve the problem, could you resolve it?
    Mr. McMahon. I think it is a resolvable problem, yes. Maybe 
not totally. I mean----
    Mr. Green. I understand. You would never get 100 percent.
    Mr. McMahon. Right.
    Mr. Green. But you could resolve it, if we gave you 
everything that you need within reason?
    Mr. McMahon. I believe so.
    Mr. Green. Okay. Then the question becomes, what do you 
need to get?
    Do not tell me now that you need a certain amount of money. 
I do not want you to put yourself in a position such that, when 
you go back to the office, you may have some additional 
questions to answer. Rather than tell me about money, tell me, 
what do you need to get the job done?
    Mr. McMahon. One of the things we have done is, we--
    Mr. Green. Remember now, this is one of those cases where 
time--remember, we never know for whom the bell will toll next. 
We have got to do everything that we can to resolve the 
problem, with the limited time that God has given us.
    Mr. McMahon. When we see an uptick in violence like we did 
in Mexico about 5 years ago, we redeployed assets. Obviously, 
when we redeployed assets, we had to take them from somewhere.
    Right now we have a 120-day detail going down in South 
Texas, with 100 agents from across the country that are no 
longer doing what they were doing in New York and Washington--
--
    Mr. Green. So, you need to replace those 100 agents?
    Mr. McMahon. At least that, yes.
    Mr. Green. Well, this is a day to talk about a wish list. 
Okay? Let us get the wish list out there. What is on the wish 
list?
    Mr. McMahon. We know at ATF that, for the next 4 years, if 
we could bring on 250 agents, 125 IOIs, investigators, and 50 
support personnel--each year--that will get us up to where we 
believe we need.
    Mr. Green. So, 250 agents.
    Mr. McMahon. Each year for the next 4 years----
    Mr. Green. Each year.
    Mr. McMahon. --125 industry operation investigators and 50 
support personnel.
    Mr. Green. Okay. So----
    Mr. McMahon. Everything that goes along with those 
personnel.
    Mr. Green. Okay. Agents and equipment.
    Mr. McMahon. Correct. Personnel and equipment.
    Mr. Green. Personnel and equipment, 250, the next 4 years.
    Okay, what else, sir?
    Anything else? That would do it for you?
    Mr. McMahon. That is what--our plan is to----
    Mr. Green. All right. Let us go to the next gentleman.
    What would it take? You have got your wish list.
    Mr. Placido. Well, sir, the good news from our perspective 
is that we are largely getting what I think the Drug 
Enforcement
Administration can contribute to this, and that is, we are 
building out a----
    Mr. Green. Let me just make sure that I have got you right 
now. You do not need anything.
    Mr. Placido. Not at this point on guns, sir.
    Mr. Green. Okay. Well, all right. But not at this point, 
maybe at this second. But will you need it next year? Give me 
your wish list as you are projecting. What will you need?
    Mr. Placido. Clearly, we can always do more with more 
resources. But the focus of the Drug Enforcement Administration 
is not guns, so I am hesitant to sit here and tell you that my 
agency needs additional resources to help on investigations of 
firearms.
    We will do everything we can within our power----
    Mr. Green. I will make a note that you have indicated that 
you do not need anything right now. And we will look forward to 
seeing you when you come back.
    Okay, let us go to--is that Mr. Kibble?
    Mr. Kibble. Yes, sir.
    Mr. Green. All right. What do you need, sir?
    Mr. Kibble. Congressman, we are actually already in the 
process of receiving enhanced resources. I think we need to 
bring them on board and assess how we are doing in terms of 
mitigating the threat. And then let me come back and give you 
an after-action report.
    Mr. Green. Okay. Now, let us talk about the gunrunning 
rather quickly, because my time is about to expire.
    Have we employed the latest in technology to assist us with 
the gunrunning?
    For example, do you make recommendations about firearms and 
how they can be manufactured? If you are privy to some 
technology that would be of benefit to you, do you make those 
kinds of recommendations to us?
    Mr. McMahon. When a new firearm comes onto the market, it 
is reviewed by us in our firearms technology branch to make 
sure it is in compliance with the law.
    Mr. Green. Do you make recommendations to Congress?
    Mr. McMahon. I do not believe we do, no.
    Mr. Green. Okay. Do you make recommendations to Congress, 
sir?
    Mr. Placido. No, sir.
    Mr. Green. Do you make recommendations to Congress, sir?
    Mr. Kibble. No, sir.
    Mr. Green. Mr. Chairman, if I may, I would like to explore 
the possibility of crafting some legislation that would allow 
them to make recommendations to Congress, so that we could 
benefit from the intelligence that they receive on the ground.
    Mr. Thompson. Well, I think, perhaps as we had a classified 
briefing from the people, we could probably get some additional 
information that could probably give us what we want.
    Mr. Green. I yield to the wisdom of the chair.
    Mr. Thompson. Well, we will set it up. It is good.
    But I think one question that I would like to put on the 
gun issue, of those 90 percent guns that we identified, can you 
tell me the source of a majority of those guns?
    Mr. McMahon. The source as far as the country, state, 
individual?
    Mr. Thompson. No, the source as to----
    Ms. Sanchez. He said 44 percent.
    Didn't you say 44 percent?
    Mr. McMahon. Well, 44 percent is about our success rate to 
get to an individual, over-the-counter purchaser.
    Mr. Thompson. Yes, okay.
    Mr. McMahon. But----
    Mr. Thompson. All right. So, 44 percent of the 90?
    Mr. McMahon. Yes, 44 percent of the total is what we 
consider successfully traced, that we have traced that to an 
over-the-counter purchaser.
    Mr. Thompson. All right. Is that, you know, from gun shows 
or firearm dealers? Or just break out the 44 percent.
    Mr. McMahon. The way the tracing system works, it will have 
to--we can only trace it to a gun dealer, because that is where 
the records are.
    The way a trace works is, we will identify a firearm. We 
will call up the manufacturer. The manufacturer to the 
wholesaler, the wholesaler to distributor, the distributor to 
the FFL, and then contact the FFL to find out who they actually 
sold the firearm to.
    Their records do sometimes say that they sold this at a gun 
show. But the majority of them just say that they sold that 
themselves from their inventory.
    Mr. Thompson. So, if I bought that weapon at a gun show, 
what would I have to produce to buy it?
    Mr. McMahon. If you bought that weapon from a gun show, 
from a licensed dealer, you fill out your record, you have the 
background check. All of that would be in place.
    Mr. Thompson. What if Mr. Green brought his daddy's .50-
caliber----
    Mr. McMahon. There is no----
    Mr. Thompson. --to the gun show?
    Mr. McMahon. There would be no record of that, other than 
when Mr. Green's father purchased the firearm.
    Mr. Thompson. And I could buy that weapon and not have to 
produce any identification or whether I happened to have been a 
convicted felon, or anything?
    Mr. McMahon. Individual sales to each other, there is no 
recordkeeping. There is no requirement for background checks or 
that sort of thing.
    Mr. Thompson. And our trace system right now is unable to 
pick that up.
    Mr. McMahon. We can only trace firearms to the first over-
the-counter purchaser.
    Mr. Thompson. From the legitimate dealer to an individual.
    Mr. McMahon. Correct.
    Mr. Thompson. And so, with that classified briefing that we 
are talking about, would you be able to offer some suggestions 
to us about how that loophole could be closed?
    Mr. McMahon. I can talk with our people and see if we can 
do that. Yes, sir.
    Mr. Thompson. Let me suggest you talk to them.
    Mr. McMahon. I will, sir.
    Mr. Thompson. All right. Thank you very much.
    Ms. Sanchez. [Presiding.] Thank you, Mr. Chairman. You have 
just pointed out one of the reasons why I hate gun shows so 
much.
    We have legitimate people who are in our community, paying 
taxes, paying rent, being real gun dealers, taking information 
on people, et cetera. And a gun show comes into town, and you 
have people who do not have to do any of that.
    And this is a problem. And it speaks specifically to 
problems like we see at the border.
    I have one last question before we end this. The reason I 
brought up this whole issue of this 90 percent when we began, 
is to bring it back to the whole idea that, if there is 
something as policymakers and as lawmakers that the Congress 
can do--some legislation or some program or something--that 
will help us to actually go after these people who are 
trafficking guns, who are running guns into Mexico, or bad 
sellers, who might be licensed correctly, but who are in fact 
selling to people who are pushing guns into Mexico.
    And again, I come from the perspective of, I am not against 
guns, and I do not want to limit the ability for everyday 
people to buy a gun to go hunt or to protect their own home, or 
to go and, you know, shoot at the firing range.
    What I want to figure out is how--is there a way in which 
we pass legislation that will help you do your job to stop what 
looks like legitimate gun dealers, who are really bad guys, or 
to stop illegitimate people, gun types of people, sellers, from 
helping to move these arms, in particular into Mexico?
    And I would ask that of all of you.
    Mr. McMahon. Well, first of all, the regulating firearms 
industry, right now there are about 59,000 federal license 
dealers that have gun shops. We actually have 540 investigators 
to regulate them.
    So, obviously, the math is, right now we are trying to get 
to--along the border we are getting to all of those licensed 
dealers once every 3 years. That would be our goal across the 
country. But obviously, with the resources we have, there is no 
way we can get to 59,000 licensees.
    That is on top of another 40,000 licensees that are either 
collectors or manufacturers, and then, on top of another 35,000 
explosives licensees that those same 550 investigators have to 
regulate.
    Ms. Sanchez. And so, when you asked for those additional 
resources every year, what category of worker was that?
    Mr. McMahon. That was the industry operation investigators, 
the IOIs. We are looking for about--our plan is for 125 each 
year for the next 5 years--or 4 years, I am sorry.
    Mr. Placido. Madam Chairwoman, I have long marveled that my 
colleagues at ATF, and others who have to enforce gun laws, 
have a much more difficult situation than we have at the Drug 
Enforcement Administration. Drugs are contraband from the 
beginning, and we can proactively investigate people who 
traffic in these contraband substances.
    Unfortunately, the Second Amendment oftentimes makes it 
lawful to have the weapons, and you can only conduct the 
investigation after the crime has occurred.
    So, barring some change to our constitutional scheme, I do 
not know how we could investigate firearms in the same manner 
that we traditionally investigate drug trafficking.
    Ms. Sanchez. But you would think that maybe we would need 
to, if we really want to stop some of this from happening. We 
acknowledge that.
    It is just that, constitutionally, we really do not want--I 
mean, I do not want to take away the right to bear arms to the 
individual in the United States. It is just when they are 
buying 300 semiautomatic weapons, or something, I do not think 
they are going to hunt with all of those at the same time on 
the same day.
    But, okay.
    Mr. McCaul. Will the gentlelady yield?
    Ms. Sanchez. Yes, Mr. McCaul.
    Mr. McCaul. I would just like to make the point that, you 
know, it is illegal to smuggle weapons into Mexico. That is 
already a violation of the law, and we need to enforce that.
    I think these BEST teams that I saw down in El Paso, for 
instance, I think enhancing that resource capability down there 
with the BEST teams--and perhaps, you know, and actually having 
Mexico do its job screening what is coming into its country--is 
perhaps one of the answers, one of the best answers to this.
    I saw the dogs down there, and they were apprehending 
weapons and currency.
    Of course, there are other points of entry and other ways 
to get it into Mexico.
    And so, I share the gentlelady's concern about this issue. 
And I think that, you know, from a resource standpoint, we need 
to look at what can we do to enhance our efforts to capture the 
currency and the weapons going into Mexico.
    Ms. Sanchez. Thank you, Mr. McCaul.
    Mr. Kibble, would you have any----
    Mr. Kibble. Chairwoman Sanchez, just to say that----
    Ms. Sanchez. --words of wisdom?
    Mr. Kibble. --with respect to our mission, the ICE mission, 
in terms of targeting cross-border smuggling, we feel we had 
the authorities we need between the Arms Export Control Act and 
our other export authorities. And that is one component--a 
significant component--of the broader interagency effort to 
deal with threat.
    But obviously, with more resources we could more.
    Ms. Sanchez. Thank you, Mr. Kibble.
    I would like to recognize the gentlewoman from Texas, for 5 
minutes.
    Ms. Jackson Lee. Thank you to the witnesses. And I thank 
the chair and ranking member for holding this meeting.
    Mr. Placido, we have had an encounter some weeks ago. I 
hope we will have a better one this time.
    The concern has gotten extensive. And we appreciate your 
service, and we appreciate the service that all of the officers 
of your various units give us every day. They are on the front 
lines.
    I would like to start with Alcohol, Tobacco and Firearms. 
And I focus on my city, primarily because I have served on 
Homeland Security since 9/11, and on Judiciary since coming to 
the United States Congress. And I would view my questioning to 
be reflective of how we can improve our circumstances.
    Why is Houston such an attractive site for gunrunning and 
for drugs? And the combination is explosive.
    You are obviously aware of how hard our law enforcement are 
working. Just 2 weeks ago, I held a roundtable with Texas 
Rangers, Department of Public Safety, the sheriff, the police, 
constables, and it was very effective.
    And I do thank your agencies that were participating--some 
of the agencies. ICE participated. We thank them very much.
    So, tell us why they are such--it is such an attractive 
place? Speak openly about gun laws in Texas.
    And as you well know, we have been suffering from what 
seems to be the acts of bad actors who happen to be 
undocumented aliens, who we are all collectively supporting. 
But that is not the face of immigration.
    And so, we have a dual problem.
    Can you share that with us, Mr. McMahon?
    Mr. McMahon. Yes, I can.
    Ms. Jackson Lee. And the efforts that you have been making. 
And I would like you to add the Texas Rangers, if you are not, 
and the Texas Department of Public Safety officers as part of 
this team.
    Mr. McMahon. Absolutely.
    I believe why Houston and South Texas is one of our major 
sources of supply to Mexico is obviously the proximity to the 
border, the large population there. There are a large number of 
dealers there. There is a large supply of firearms in Texas. 
So, that makes it attractive to those who want to take 
advantage of our laws.
    Our efforts, as I said earlier, we have an additional 100 
personnel in South Texas right now. We are a small agency. We 
have to partner with people like the----
    Ms. Jackson Lee. So, if, for example, we would have enough 
interest that we would up your budget, could you use that 
money?
    Mr. McMahon. Absolutely.
    Ms. Jackson Lee. You could use more than 100.
    Mr. McMahon. I think, you know, when we move those 100 down 
there, the results are astronomical.
    Ms. Jackson Lee. And how well without--you have some in the 
Houston area.
    Mr. McMahon. Yes. Houston and then----
    Ms. Jackson Lee. Do the laws of our state impact on it 
being a lightning rod--Houston, for example--for this 
gunrunning?
    Mr. McMahon. Well, obviously, the laws--guns are accessible 
in the Houston area, more accessible there than some other 
states. But I think it is more so the proximity to the border, 
and then, obviously, the population size of the Houston area.
    Ms. Jackson Lee. And you think the effective roundtable or 
coordinating--and have you established--is it in a MOU, or you 
all just put together a task force?
    Mr. McMahon. We have worked on task forces. Obviously, 
because of--an agency the size of us, we have to----
    Ms. Jackson Lee. You have to leverage your numbers.
    Mr. McMahon. Absolutely.
    Ms. Jackson Lee. Mr. Placido, very quickly, I asked this 
question before, because Mr. Poe and I have legislation about 
dispatching extra numbers. So, let me put it in a different 
way.
    Could you use more financial resources to help in the DEA 
effort? And particularly, how and why is Houston a lightning 
rod for, I assume, what is quite a bit of drug running?
    Mr. Placido. Thank you for the question. Clearly, we could 
do more with additional resources.
    Houston historically has been a very important location in 
transnational drug trafficking. If you go back to the 1980s, it 
became in many senses a corporate headquarters for Colombian 
drug trafficking organizations, owing to a large population of 
Colombians there. And I do not mean to disparage ethnic groups, 
but there was a very large concentration of drug trafficking 
organizations based with their roots in Colombia.
    As that traffic shifted and Mexican organizations began to 
take over transportation and retail distribution, Houston had a 
history--had the infrastructure, is close to the border--as a 
staging area. And it remains one of the critical nodes in 
smuggling of----
    Ms. Jackson Lee. So, if we can make a dent in Houston, we 
can make a large dent in some of the cross-border problems.
    Mr. Placido. Yes, ma'am.
    Ms. Jackson Lee. Madam Chairman, I ask unanimous consent 
for an additional minute for Mr. Kibble to answer as this time 
runs out.
    Mr. Kibble, if you would. And as I indicated, Mr. Poe and I 
have legislation that helps to dispatch individuals----
    Ms. Sanchez. Ms. Jackson Lee, would you have him answer the 
question? I have Mr. McCaul, who needs to----
    Ms. Jackson Lee. And so, if you would answer that question.
    Ms. Sanchez. --would like to say something, if we have 
time.
    Ms. Jackson Lee. And then I can share with you the 
legislation.
    Mr. Kibble, thank you.
    Mr. Kibble. Ms. Congresswoman, I mean, with the finite 
resources we have, we prioritize our efforts. With additional 
resources we could broaden those priorities to address more.
    And very quickly, to the other issue that you had 
identified in terms of the criminal alien----
    Ms. Jackson Lee. Criminal aliens.
    Mr. Kibble. --impact. We have other programs, such as 
Secure Communities, that we are rapidly deploying in order to--
and prioritizing criminal aliens--in order to remove them as 
threats from our communities, as well.
    Ms. Jackson Lee. Let me thank you all very much. I look 
forward to working with you on this very severe problem. And I 
look forward to you looking at my legislation----
    Ms. Sanchez. The gentlewoman's time has expired.
    Ms. Jackson Lee. --as it relates to more resources.
    Thank you, Madam Chair, very much. This is an important----
    Ms. Sanchez. We thank the witnesses for their valuable 
testimony, and the members for their questions. And the members 
of the subcommittee may have additional questions for the 
witnesses. We will ask you to respond quickly in writing to 
those questions.
    And hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]

                             For the Record

                               __________

                        Questions and Responses

Questions from the Honorable Loretta Sanchez, Chairwoman, Subcommitttee 
           on Border, Maritime, and Global Counterterrorism,

                      Responses from Kumar Kibble

    Question 1.: GAO recently reported (GAO-09-709) that there was a 
lack of information sharing between ATF and ICE on firearms trafficking 
issues at the El Paso Intelligence Center (EPIC), which was established 
to facilitate coordinated intelligence gathering and dissemination 
among member agencies related to southwest border efforts to address 
drug, alien, and weapons smuggling. Separately, GAO reported (GAO-09-
63) that ICE has not participated fully in DEA-operated intelligence 
centers, which leaves them lacking an important source of information 
and intelligence.
    What steps are being taken to improve cooperation and information 
sharing between ATF and ICE at EPIC and DEA and ICE at DEA-operated 
intelligence centers?
    Response: On June 30, 2009, the Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF) and U.S. Immigration and Customs 
Enforcement (ICE) updated a memorandum of understanding (MOU) that 
clearly establishes how the two agencies will work together on 
investigations of international firearms trafficking and possession of 
firearms by illegal aliens.
    The MOU will optimize the resources and minimize the duplication of 
efforts by each agency. This agreement establishes a framework for both 
agencies to conduct investigations and share intelligence. ATF and ICE 
routinely conduct joint investigations. This agreement clarifies the 
notification process each agency is expected to follow while 
investigating the international trafficking of firearms, ammunition, 
explosives, weapons and munitions. Both agencies are committed to 
working together to reduce firearms-related violence along the U.S. 
border.
    More recently, ATF's Acting Director and ICE's Assistant Secretary 
visited with Mexican officials to discuss ways to coordinate firearms 
trafficking and smuggling investigations on both sides of the border.
    The ICE Office of Intelligence (Intel) assigned personnel to the 
``EPIC Gun Desk,'' which is located within the Watch Operations area at 
the El Paso Intelligence Center (EPIC). Prior to the integration of ICE 
personnel into the ``Gun Desk'' operation, the function had been known 
as the ``ATF Gun Desk.'' In keeping with the collaborative initiative 
of ICE personnel working closely with ATF personnel, the name of the 
operation was changed to the ``EPIC Gun Desk'' to reflect the inclusion 
of ICE in the operation. Previously, the ``Gun Desk'' served as a 
central repository for weapons-related intelligence information. ICE 
personnel review weapon seizures received from multiple domestic and 
foreign sources and coordinate with ATF personnel to link the seized 
weapon information to active investigations. However, in August, ATF, 
in coordination with EPIC, created the Special Projects Unit (SPU). ICE 
has agreed to provide two analysts to this team. Now the SPU will serve 
as the central repository for weapons-related intelligence and 
information. ICE works closely with ATF to conduct outreach and 
education for weapons dealers through the ATF Federal Firearms License 
Inspections Program.
    ICE Intel has been given access to E-trace, ATF's electronic 
tracing tool. ICE personnel coordinate with ATF to proactively utilize 
this tool to develop potential leads for investigative field agents. In 
2006, ICE signed an E-trace memorandum of understanding (MOU) with ATF.
    In addition, ICE has assigned personnel to the Watch Operations 
Unit and the Southwest Border Unit at EPIC to coordinate with the Drug 
Enforcement Administration (DEA) on all drug-related issues.
    Through Operation Archangel, ICE Intel partnered with DEA to 
provide real-time intelligence to law enforcement on drug trafficking 
operations along the southwest border. DEA and ICE share a strong 
interest in stopping the unlawful flow of narcotics into the United 
States. By harnessing DEA's expertise in enforcing controlled substance 
laws and ICE's expertise in investigating the unlawful importation and 
exportation of contraband, the agencies can most effectively dismantle 
and disrupt trafficking organizations like those which are engaged in 
violence along the Southwest Border.
    On June 18, 2009, ICE and DEA entered into a new interagency 
agreement to increase the number of agents targeting international drug 
traffickers, improve and enhance information and intelligence sharing, 
and promote effective coordination between the agencies. The 
interagency agreement greatly strengthens the sharing of drug 
intelligence and the coordination and deconfliction of drug enforcement 
investigations. Under the new agreement, ICE will select special agents 
for cross-designation by DEA. These ICE agents will be authorized to 
investigate drug cases with a clear nexus to the U.S. borders or ports 
of entry. On August 6, 2009, ICE also entered into an agreement to 
participate in the Department of Justice's Organized Crime Drug 
Enforcement Task Force (OCDETF) fusion center. ICE's full participation 
in the OCDETF Fusion Center will enable federal law enforcement 
partners to more closely coordinate investigations. ICE and others will 
also be able to share information about the seizure of money and other 
contraband from those engaged in criminal conduct. This type of 
information sharing enables the agencies to make important links 
between these seizures and international drug trafficking 
organizations.
    ICE continually looks for ways to improve cooperation and 
information sharing between partner law enforcement agencies.

    Question 2.: ICE and DEA signed an MOU in June to ensure that law 
enforcement efforts are more fully coordinated on investigations 
involving firearms trafficking and related crimes.
    What sort of formal mechanisms are ICE and DEA putting in place to 
ensure that they coordinate and share information?
    What additional steps, beyond the MOU, if any, do the agencies plan 
to take to improve interagency coordination and cooperation?
    What metrics will be used to assess implementation of the MOU?
    Response: U.S. Immigration and Customs Enforcement (ICE) and the 
Drug Enforcement Administration (DEA) are committed to information 
sharing which will lead to the dismantling and disrupting of drug 
trafficking organizations. The interagency cooperation agreement 
between ICE and DEA signed on June 18, 2009, outlines formal mechanisms 
that will ensure interagency coordination and information sharing. The 
following are the formal mechanisms outlined in the agreement:
        <bullet> On August 6, 2009, ICE entered into an agreement to 
        participate in the Organized Crime Drug Enforcement Task Force 
        (OCDETF) Fusion Center (OFC) through which ICE will share and 
        coordinate investigative information with a number of agencies, 
        including the Bureau of Alcohol, Tobacco, Firearms and 
        Explosives (ATF) and DEA. ICE will fully participate in and 
        staff the OCDETF OFC and the Special Operations Division (SOD).
        <bullet> ICE fully intends to participate and share information 
        to the same extent as other major federal partners in the OFC 
        and SOD. ICE has committed to sharing all investigative 
        reports, records, and subject indexing records from open and 
        closed investigations, including those related to drugs, money 
        laundering, bulk cash smuggling, and financial crimes, gangs, 
        and weapons.
        <bullet> CE has agreed to provide access to data related to all 
        seizures of money, drugs, and firearms, including date, type of 
        contraband, amount, place of seizure, and geospatial data when 
        known, at the El Paso Intelligence Center (EPIC).
        <bullet> The attached memorandum of understanding (MOU) 
        stipulates that all entry level supervisors are responsible for 
        ensuring that personnel under their supervision fully de-
        conflict and comply with the MOU.
        <bullet> The MOU also requires the establishment of a Title 21 
        Coordinator. ICE and DEA will select a Title 21 coordinator at 
        a level no lower than an assistant special agent in charge, for 
        each office. The Title 21 coordinator will ensure cooperation, 
        communication, coordination, and de-confliction for Title 21 
        matters affecting their respective offices.
        <bullet> ICE and DEA also will form a headquarters review team 
        comprised of senior managers from the respective agencies to 
        resolve de-confliction and coordination issues.
        <bullet> The agreement directs ICE and DEA to utilize 
        established local and regional de-confliction centers and/or 
        procedures prior to engaging in enforcement activity.
    In addition to the formal mechanisms in the agreement, ICE plans to 
improve interagency coordination and cooperation. These mechanisms 
center on joint investigations and investigative task forces. ICE and 
DEA routinely conduct joint investigations and combine resources 
through established investigative task forces such as the Border 
Enforcement Security Task Force ,the Organized Crime Drug Enforcement 
Task Force, the High Intensity Drug Trafficking Area, High Intensity 
Financial Crimes Area, Panama Express, and Caribbean Corridor.
    No metrics have been developed at this time; however, ICE will 
continue to look at successes to measure joint partnerships. The new 
agreement will reviewed after one year. Following that review, the 
agreement will be reviewed every two years. The MOU is attached for 
further clarification.

    Question 3.: The 2009 National Southwest Border Counternarcotics 
Strategy contains some goals for agencies for combating firearms 
trafficking but lacks details about how to accomplish those goals. GAO 
recently reported that ONDCP said that an implementation plan for the 
2009 Strategy, due some time this year, will contain details on how the 
agencies should accomplish those goals.
    What role are ATF and ICE playing in the creation of this 
implementation plan?
    What mechanisms will be put in place to ensure agencies are 
accomplishing the goals outlined in the strategy and the detailed tasks 
ONDCP stated will be laid out in the Strategy's implementation plan?
    What are ATF and ICE's plans for funding any new activities or 
efforts laid out in the Strategy, or in the forthcoming implementation 
plan for the Strategy?
    Response: U.S. Immigration and Customs Enforcement (ICE) and the 
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) participated 
in drafting Chapter 7, ``Weapons,'' of the 2009 National Southwest 
Border Counter Narcotics Strategy (NSBCNS). ICE and ATF led a working 
group through the development and coordination of the specific chapter, 
collected and consolidated all input and ensured consensus among 
working group members for all material submitted. ICE and ATF also are 
working with interagency partners on the strategy's implementation 
process. The working group is also currently working on performance 
measures for a strategy that will support future progress updates.
    ICE has temporarily detailed, utilizing base funds, 110 special 
agents from around the U.S., to various offices along the Southwest 
Border and in Mexico City in support of Border Enforcement Security 
Task Forces to combat weapons and bulk cash smuggling into Mexico. The 
operation focuses on contraband, firearms, ammunition, undeclared U.S. 
currency, stolen vehicles, and human smuggling among other things, at 
and between ports of entry along the U.S./Mexico border. ICE recently 
completed a spending plan for the Fiscal Year (FY) 2009 supplemental 
resources to fund 110 permanent special agent positions along the 
Southwest Border; these positions would replace the need for the 110 
temporarily detailed special agents currently assigned there. ICE has 
requested an additional $25 million in the fiscal year 2010 budget to 
address arms, drugs, and cash smuggling along the southwest border that 
is specifically called for in the 2009 NSBCNS. No other funding is 
envisioned at this time.
    In addition to the steps already mentioned, both ICE and ATF have 
assigned Liaison Officers to the Office of National Drug Control Policy 
who in turn are able to address all issues that impact the 
implementation of the Southwest Border Strategy and the needs/
requirements of their respective agencies with ONDCP. ICE continually 
looks for ways to improve cooperation and information sharing between 
partner law enforcement agencies.

    Question 4.: GAO's report (GAO-09-709) also recommended that ATF 
and ICE improve their data on arms trafficking, including regarding 
firearms trace data, assessments of southbound arms smuggling trends, 
and the results of their efforts to combat arms trafficking.
    What plans does ATF have for updating its reporting on aggregate 
firearms trafficking data and trends?
    Will ATF and ICE share comprehensive data and leverage each other's 
expertise and analysis on future agency assessments, including DHS 
assessments of southbound weapons smuggling trends?
    How will ATF and ICE ensure the systematic gathering and reporting 
of data related to results of their efforts to combat arms trafficking, 
including firearms seizures, investigations, and prosecutions of 
individuals involved in their investigations?
    Response: On June 30, 2009, the Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF) and U.S. Immigration and Customs 
Enforcement (ICE) updated a memorandum of understanding (MOU) that 
clearly establishes how the two agencies will work together on 
investigations of international firearms trafficking and possession of 
firearms by illegal aliens.
    ICE defers to ATF to respond to the question regarding ATF's plans 
to update its reporting on aggregate firearms trafficking data and 
trends.
    The MOU will optimize the resources and minimize the duplication of 
efforts by each agency. This agreement establishes a framework for both 
agencies to conduct investigations and share intelligence. ATF and ICE 
routinely conduct joint investigations. This agreement clarifies the 
notification process each agency is expected to follow while 
investigating the international trafficking of firearms, ammunition, 
explosives, weapons and munitions. Both agencies are committed to 
working together to reduce firearms-related violence along the U.S. 
border.
    The ICE Office of Intelligence (Intel) provided ATF with the 
Strategic Assessment: U.S. Southbound Weapons Smuggling for review and 
comment prior to production. ICE Intel is currently updating the 
Assessment and will provide it to ATF for review and comment. In 
addition, ICE Intel continues to share products with ATF and other 
partners at the El Paso Intelligence Center (EPIC).
    ICE is committed to working with ATF in the development of joint 
intelligence assessments relevant to southbound weapons smuggling 
trends. Intelligence sharing between ICE and ATF typically involves 
exchanges of finished intelligence assessments and the routine daily 
interaction of each agency's intelligence analyst personnel assigned to 
EPIC's Special Projects Unit (SPU). Recognizing the need for increased 
interaction, ICE has assigned a permanent full-time equivalent to the 
SPU housed at EPIC which serves as the central repository for weapons-
related intelligence information. SPU personnel review reports of 
weapons seizures, conduct research through ICE, ATF and EPIC data 
resources, and link the seized weapons to active investigations and/or 
reports of stolen or lost weapons. Intelligence collaboration between 
ICE and ATF will assist in the production of joint tactical and 
operational intelligence assessments that will result in significant 
weapons-related investigations and prosecutions.
    ICE continually looks for ways to improve cooperation and 
information sharing between partner law enforcement agencies. ATF's 
Office of Strategic Intelligence and Information maintains a good 
ongoing collaborative relationship. Our analysts routinely collaborate 
on matters of mutual interest through information sharing. At EPIC, ATF 
and ICE make up a team dedicated to the collection, analysis and 
dissemination of weapons-related intelligence and information. This 
intelligence and information is shared with all partner agencies at 
EPIC.

    Question 5.: ICE and ATF signed an MOU at the end of June to ensure 
that law enforcement efforts are more fully coordinated on 
investigations involving firearms trafficking, drug trafficking, and 
other serious crimes.
    Recognizing that both ATF and ICE have a role in combating arms 
trafficking to Mexico, will one agency assume a lead role on 
investigations and efforts to combat arms trafficking to Mexico, or how 
will efforts be organized?
    What sort of formal mechanisms are ATF and ICE putting in place to 
ensure that they coordinate and share information?
    What additional steps, beyond the MOUs, if any, do the agencies 
plan to take to improve interagency coordination and cooperation?
    Response: The lead role for any investigation involving firearms, 
drug trafficking and other serious crimes is contingent on many 
circumstances including, but not limited to, international trafficking/
smuggling violations, sources of information, investigative activities 
at the ports of entry, and federal firearms licensees. Since U.S. 
Immigration and Customs Enforcement (ICE) and the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF) have complementary investigative 
roles, they will work together to combat arms trafficking to Mexico. 
The June 30, 2009, memorandum of understanding (MOU) between ICE and 
ATF formalizes a partnership to promote effective, coordinated and 
collective law enforcement efforts both nationally and internationally.
    ATF's investigative jurisdiction is broad and includes 
administration and enforcement of firearms and explosive laws and 
regulations, to include investigating federal crimes involving the 
possession, licensing, transportation, sale and receipt of firearms, 
explosives, and ammunition, in interstate or foreign commerce.
    ICE is responsible for the enforcement of export and smuggling 
laws, including those pertaining to firearms. ICE enforces a number of 
export- related laws, including 18 U.S.C. Sec. Sec. 541-555 (customs), 
19 U.S.C. Sec. 1627 (stolen vehicles), and 31 U.S.C. Sec. 5332 (bulk 
cash smuggling). ATF is responsible for administration and enforcement 
of the importation provisions of section 38 of the Arms Export Control 
Act (AECA), relating to the importation of arms, ammunition, and 
implements of war. ATF also enforces the Gun Control Act of 1968, the 
National Firearms Act, Title VII of the Omnibus Crime Control and Safe 
Streets Act of 1968, and Title II of the Organized Crime Control Act of 
1970. These statutes provide for ATF's administration and enforcement 
of licensing, sales, possession and related domestic violations.
    ICE has broad authority to enforce and investigate violations of 
law governing the illegal export, and temporary import, of arms, 
ammunition and implements of war, pursuant to the AECA, and its 
implementing regulations. ICE has been provided with the authority to 
investigate violations of the export provisions of AECA, as noted in 22 
C.F.R. Sec. 127.4. Through the Export Administration Act (EAA), and its 
implementing regulations, ICE has the authority to investigate, seize 
and detain any export or attempted export of dual-use commodities. In 
certain circumstances, ICE may also employ the International Emergency 
Economic Powers Act or the Trading with the Enemy Act.
    The 2009 MOU between ICE and ATF includes provisions within section 
VI that delineate the steps to monitor the implementation of the MOU, 
and to resolve interagency conflicts. Monitoring of the MOU's 
implementation and the resolution of conflicts will begin at the lowest 
possible level and will rely on the sound judgment of the ICE and ATF 
special agents in charge to ensure deconfliction of issues or 
activities in the field. In addition, the MOU establishes formal 
guidelines to ensure that ICE and ATF will coordinate and share 
information.
    In those instances where competing equities prevent the field 
elements from reaching a mutually satisfactory conclusion on any matter 
under the purview of the MOU, the ICE Director, Office of 
Investigations, and the ATF Assistant Director, Field Operations, will 
adjudicate the conflict, if necessary.
    ICE is committed to working with ATF to develop joint intelligence 
assessments relevant to southbound weapons smuggling trends. 
Intelligence sharing between ICE and ATF typically involves exchanges 
of finished intelligence assessments and the routine daily interaction 
of each agency's analysts assigned to the El Paso Intelligence Center 
(EPIC) Special Projects Unit (SPU). Recognizing a need for increased 
interaction, ICE has assigned a permanent analyst to EPIC's SPU, which 
serves as a central repository for weapons-related intelligence 
information. SPU personnel review reports of weapons seizures, conduct 
research through ICE, ATF and EPIC data resources, and attempt to link 
the seized weapons to active investigations and reports of stolen or 
lost weapons. Intelligence collaboration in this manner between ICE and 
ATF will assist in the production of joint tactical and operational 
intelligence assessments that may result in significant weapons-related 
investigations, and will serve as the basis for large-scale operations. 
As previously noted ATF's Office of Strategic Intelligence and 
Information and ICE's Office of Intelligence will continue to 
collaborate and share intelligence and information.
    ICE constantly looks for ways to improve cooperation and 
information sharing between partners and law enforcement agencies. For 
instance, ATF participates in several of ICE's Border Enforcement 
Security Task Forces.
    The MOU is attached for further clarification.

   Questions from the Honorable Ann Kirkpatrick, a Representative in 
                   Congress from the State of Arizona

    Question 6.: The MOU states that ICE will invite the DEA to 
participate in investigations involving Title 21 authority.
    How will this participation work?
    Would ICE remain the lead agency on the investigation?
    Would the DEA have any authority to either change the course of the 
investigation or take over the case?
    Response: The Interagency Cooperation Agreement between U.S. 
Immigration and Customs Enforcement (ICE) and the Drug Enforcement 
Administration (DEA) states that ICE will notify DEA of investigations 
involving the exercise of Title 21 authority. Further, ICE will invite 
DEA to participate in the Title 21 investigation. However, this 
invitation provision does not apply to arrests and seizures at the 
border or port of entry where no follow-up investigation is conducted. 
The cognizant ICE and DEA special agent in charge (SAC) will determine 
the manner of notification and invitation. An invitation from ICE to 
DEA to participate in a Title 21 investigation will materialize through 
individual joint investigations and through established interagency 
task forces such as the Border Enforcement Security Task Force, the 
Organized Crime Drug Enforcement Task Force, the High Intensity Drug 
Trafficking Area , High Intensity Financial Crimes Area, Panama 
Express, and Caribbean Corridor. The agreement states that ICE and DEA 
will invite each other to participate in joint task forces.
    ICE will remain the lead agency for investigations in which it 
invites DEA to participate.
    The issue of authority to either change the course of the 
investigation or take over the case would be resolved by the following 
process:
        <bullet> In the event non-exigent disputes over investigations 
        cannot be resolved by either the designated ICE and DEA Title 
        21 assistant special agent in charge (ASAC), or the respective 
        SAC's, then the ICE/DEA headquarters review team (HRT) 
        comprised of three senior managers from each agency will 
        resolve coordination issues.
        <bullet> In the event that a dispute cannot be resolved at 
        either the ASAC or SAC level, the DEA SAC will make a decision 
        and the agencies will act in accordance with that decision.
    The MOU is attached for further clarification.\1\
---------------------------------------------------------------------------
    \1\ [The referemced MOU is maintained in the committee files.]
---------------------------------------------------------------------------

Questions from the Honorable Loretta Sanchez, Chairwoman, Subcommittee 
           on Border, Maritime, and Global Coiunterterrorism

                     Responses from Anthony Placido

    Question 1.: GAO recently reported (GAO-09-709) that there was a 
lack of information sharing between ATF and ICE on firearms trafficking 
issues at the El Intelligence Center (EPIC), which was established to 
facilitate coordinated intelligence gathering and dissemination among 
member agencies related to southwest border efforts to address drug, 
alien, and weapons smuggling. Separately, GAO reported (GAO-09-63) that 
ICE has not participated fully in DEA-operated intelligence centers, 
which leaves them lacking an important source of information and 
intelligence.
    What steps are being taken to improve cooperation and information 
sharing between ATF and ICE at EPIC and DEA and ICE at DEA-operated 
intelligence centers?
    Response: Under the June 18,2009, Interagency Cooperation Agreement 
(ICA) between DEA and ICE, ICE has committed to sharing all 
investigative reports, records, and subject indexing records from open 
and closed investigations, including those related to drugs, money 
laundering, bulk cash smuggling and financial crimes, gangs, and 
weapons. DEA will continue to participate fully in and share all 
information at the OCDETF Fusion Center (OFC) and Special Operations 
Division (SOD).
    ICE also agrees to provide, and will have access to, data related 
to all seizures of money, drugs, and firearms, including date, type of 
contraband, amount, place of seizure, and geo-spatial data, when known, 
at the El Paso Intelligence Center (EPIC). DEA will continue sharing 
this data at EPIC.
    The EPIC Gun Desk serves as a central repository for weapons-
related intelligence information. Co-located ICE Office of Intelligence 
(OINT) and ATF Gun Desks personnel review reports of weapons seizures, 
which are acquired from multiple U.S. domestic and foreign law 
enforcement sources. ATF and ICE Gun Desk analysts research the 
reported weapon-related information through ICE, ATF and EPIC data 
resources and attempt to link the seized weapons to ATF and other 
agency investigations and reports of stolen or lost weapons.
    The Border Violence Intelligence Cell (BVIC) at EPIC is a central 
point within ICE to better support efforts to combat outbound weapons 
smuggling and overall border violence along the United States-Mexico 
Border. The BVIC produces strategic intelligence products that provide 
partner agencies at EPIC and within the ICE Border Enforcement Security 
Task Forces (BESTs) with a global view of the criminal activity fueling 
acts of border violence. Plans are underway, which include facility 
workspace modifications, to incorporate ICE personnel into the EPIC 
Southwest Border Unit (currently comprised of DEA, FBI, CBP, ATF and 
Texas DPS personnel) to enhance information and intelligence sharing.
ICE and DEA
    Questions 2.: ICE and DEA signed an MOU in June to ensure that law 
enforcement efforts are more fully coordinated on investigations 
involving firearms trafficking and related crimes.
    What sort of formal mechanisms are ICE and DEA putting in place to 
ensure that they coordinate and share information?
    Response: The ICA authorizes the Assistant Secretary for ICE to 
select an unlimited number of ICE agents for cross-designation by the 
Administrator of DEA whose duties include the investigation of 
narcotics with a clearly articulable nexus to the borders or Ports of 
Entry, including the transportation and staging activities within the 
United States or between the source or destination country and the 
United States. Deconfliction between DEA and ICE is paramount and 
mandatory in investigations. ICE and DEA supervisors at every level are 
responsible for ensuring personnel under their supervision fully 
deconflict and comply with the interagency agreement.
    DEA and ICE have established a Title 21 Coordinator position in 
each division who will be the liaison for Title 21 investigations.
    ICE will establish a Title 21 Coordinator in foreign locations 
where ICE has an office. The Title 21 Coordinator will be the liaison 
with the DEA office head in that country.
    Both DEA and ICE committed to extensive information sharing in the 
interagency agreement. ICE has committed to full participation in the 
OCDETF Fusion Center and SOD. They will also provide seizure data to 
EPIC, but have not committed to full staffing at EPIC. DEA will 
continue to participate fully in and share all information at the 
OCDETF Fusion Center and SOD.
    The interagency agreement calls for use of existing regional 
coordination centers in addition to locally agreed upon deconfliction 
methods.
    DEA is responsible for the coordination of all Federal drug 
investigations to ensure deconfliction and compliance with all relevant 
protocols. Through the Office of International Affairs (OIA) and its 
ICE Attaches, ICE works with domestic and foreign counterparts to 
identify and combat criminal organizations before they can adversely 
impact the United States and to facilitate domestic ICE investigations 
involving transnational criminal organizations, including drug 
smuggling investigations. ICE Attaches are the Department of Homeland 
Security's (DHS) investigative component in U.S. Embassies responsible 
for coordinating operations within DHS and between DHS and other 
Federal agencies regarding the interdiction of illegal drugs entering 
the United States and investigating connections between illegal drug 
trafficking and transnational criminal organizations. Accordingly, ICE 
Attaches are responsible for coordinating and deconflicting any drug 
enforcement activities with the DEA Attache or designee.
    ICE and DEA have agreed upon establishment of a Headquarters Review 
Team (HRT) to address coordination issues. In the field, the strategy 
and manner of operational deconfliction will be left to the sound 
discretion of DEA and ICE Special Agents in Charge (SACs) at the local 
level.
    Furthermore, the interagency agreement sets forth procedures for 
both ICE and DEA to coordinate investigations. ICE and DEA will invite 
each other to participate in each other's task forces. ICE will invite 
DEA to participate in all ICE Title 21 investigations. DEA will notify 
ICE if they are conducting a pass through operation. In addition, if 
during the course of a Title 21 investigation in either the domestic or 
foreign arena, if DEA determines that a case has a connection to alien 
smuggling, nondrug-related international illicit financial schemes, 
human trafficking, or significant quantities of counterfeit or other 
nondrug contraband, DEA will notify and invite ICE to participate in 
the investigation or refer these non-Title 21 offenses to ICE.

    Question 3.: What additional steps, beyond the MOU, if any, do the 
agencies plan to take to improve interagency coordination and 
cooperation?
    Response: The ICA provides for DEA and ICE Special Agents in Charge 
(SACs) to agree on local coordination protocols which will implement 
the terms of the ICA. They will also invite each other to participate 
in the other's task forces when an investigation involves criminal 
conduct falling under the jurisdiction of more than one agency. These 
task forces include, but are not limited to, the OCDETF Strike Forces, 
the BESTs, and the High Intensity Drug Trafficking Areas (HIDTAs). 
These coordination procedures, when coupled with the strong information 
sharing procedures, will greatly improve interagency relationships.

    Question 4.: What will be used to assess implementation of the MOU?
    Response: DEA and ICE will conduct a review of the ICA one year 
after the initial effective date. The Headquarters Review Team provided 
for in the ICA will also identify global issues so that they may be 
addressed and resolved. Subsequent reviews will occur every two years 
thereafter.

DEA
    Question 5.: The DEA has the largest federal law enforcement 
presence overseas. The MOU recognizes this presence by making clear 
that DEA remains the ``single point of contact'' for drug 
investigations in foreign countries. The MOU also makes cler, however, 
that such a responsibility does not mean that DEA will supervise ICE's 
investigative activities overseas.
    Please describe foreign law enforcement activities and the 
oversight you generally perform on the investigations of other 
agencies, including ICE. How does the MOU change DEA's overseas 
activities or oversight responsibilities?
    Response: DEA has global responsibilities for enforcing U.S. drug 
laws. As part of a Country Team within a U.S. embassy, DEA acts as the 
focal point with foreign Iaw enforcement officials on drug law 
enforcement operational and intelligence matters. This role assures 
coordination, maximizes investigative effectiveness, promotes agents' 
safety, and unifies the U.S. Government's drug control efforts 
undertaken in foreign countries. However, ICE Attaches serve as DHS' 
investigative component in U.S. embassies for coordinating policy and 
operations within DHS and between DHS and other Federal agencies 
regarding the interdiction of illegal drugs entering the U. S . and 
investigating connections between illegal drug trafficking and 
transnational criminal organizations.
    The oversight by DEA is maintained by DEA ensuring: (a) that the 
foreign extensions of all U.S. drug investigations are coordinated 
properly within the U.S. embassy in the host country, as well as with 
the relevant law enforcement authorities of that host country; and (b) 
that the foreign extension of any U.S. drug investigation complies with 
all relevant legal obligations and understandings of and between the 
U.S. Government and the host country.
    Operational foreign drug investigative activities require 
coordination of those activities, between both the requesting agency 
and DEA, as well as with the Ambassador and other relevant agencies. As 
noted in the ICA, DEA does not directly supervise ICE's investigative 
activities, direct the strategy or set the objectives of ICE 
investigative matters. Instead, DEA's review of the planned foreign 
drug investigative activities ensures the compliance discussed above 
and prevents conflict with other ongoing investigative matters.
    ICE may investigate drug smuggling cases with a clearly articulated 
nexus to the U.S. borders. The investigation may take place abroad in 
coordination with DEA. This agreement will continue to ensure the U.S. 
Government speaks with one voice, while also expanding our 
investigative efforts overseas.

    Questions 6.:Under a 1996 MOU between the former Immigration and 
Naturalization Service and the DEA, Border Patrol agents transfer drug 
and related intelligence intercepted between the ports of entry to the 
DEA. Many, including and DHS' Office of Counternarcotics, have 
questioned whether this practice makes sense from an operational 
standpoint, since ICE could be utilized to perform the same 
investigation within the same department.
    Will the Title 21 MOU between ICE and DEA affect Border operations?
    Response: The DEA/ICE ICA does not change the existing procedure 
between DEA and CBP (INS) as established in the MOU dated March 25, 
1996.

    Question 7.: Are there any plans to update the 1996 between Border 
Patrol and DEA?
    Response: There are no plans to update the 1996 at the present 
time.

 Questions from the Honorable Ann Kirkpatrick (AZ-01), Subcommittee on 
             Border, Maritime, and Global Counterterrorism:

    Question 1.: The MOU states that ICE will invite the DEA to 
participate in investigations involving Title 21 authority.
    How will this participation work?
    Response: ICE will notify DEA of investigations involving the 
exercise of Title 21 authority by contacting the appropriate DEA Title 
21 Coordinator. The manner of notification will be determined by the 
ICE and DEA SACs. As part of the notification, ICE will invite DEA to 
participate in the investigation. Furthermore, the use of joint task 
forces like the Organized Crime Drug Enforcement Task Force (OCDETF) 
Strike Forces, the Border Enforcement Security Task Forces (BESTs), and 
the High Intensity Drug Trafficking Areas (HIDTAs) will also serve as a 
mechanism for participation. Aside from ICE notification to DEA, DEA 
will notify ICE if they are conducting a pass through operation. In 
addition, if during the course of a Title 21 investigation in either 
the domestic or foreign arena, if DEA determines that a case has a 
connection to alien smuggling, nondrug-related international illicit 
financial schemes, human trafficking, or significant quantities of 
counterfeit or other nondrug contraband, DEA will notify and invite ICE 
to participate in the investigation or refer these non-Title 21 
offenses to ICE.

    Question 2.: Would ICE remain the lead agency on the investigation?
    Response: The Interagency Coordination Agreement (ICA) does not 
specify which agency would be the lead agency in the event 
investigations are of interest to both DEA and ICE. Therefore, 
designation, if merited, of the lead agency will be made at the local 
level and will be determined by the circumstances of the investigation, 
including whether it relates to a long-term ongoing investigation 
already in existence, whether the target organization is also engaging 
in non-drug crimes (for example, alien smuggling) and whether 
investigative resources available to each agency under non-exigent 
circumstances. However, under exigent circumstances if the line 
supervisors, the respective Title 21 coordinators and the DEA and ICE 
SACs cannot resolve the conflict or issue, the DEA SAC will make a 
decision and the agencies will act in accordance with the decision 
followed by a written explanation within 48 hours which may be elevated 
to a Headquarters Review Team (HRT).

    Question 3.: Would the DEA have any authority to either change the 
course of the investigation or take over the case?
    Response: Both DEA and ICE bring independent expertise to a Title 
21 investigation. Case direction should be determined by input of both 
agencies. If a conflict arises which cannot be resolved locally, it may 
be referred to the HRT for resolution. The HRT is comprised of three 
senior managers from DEA and ICE, including the DEA Chief of Operations 
and the ICE Director of Investigations. The DEA Chief of Operations 
chairs the HRT and the ICE Director of Investigations is the vice 
chair. While the HRT has not convened to date, the HRT will resolve 
disputes by majority vote. If the HRT is unable to resolve the issue 
arising under the ICA by majority vote, the DEA Chief of Operations 
will provide a decision which ICE may appeal to the agency heads.

                                 <all>

</pre></body></html>
